<html>
<title> - NO CHILD LEFT BEHIND: RAISING STUDENT ACHIEVEMENT IN AMERICA'S BIG CITY SCHOOLS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  NO CHILD LEFT BEHIND: RAISING STUDENT ACHIEVEMENT IN AMERICA'S BIG 
                             CITY SCHOOLS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             June 23, 2004

                               __________

                           Serial No. 108-65

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-513                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 23, 2004....................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    66
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce..........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Casserly, Dr. Michael D., Executive Director, Council of 
      Great City Schools, Washington, DC.........................     7
        Prepared statement of....................................    10
    Newsome, Dr. Marcus, Superintendent, Newport News County 
      Public Schools, Newport News, Virginia.....................    30
        Prepared statement of....................................    33
    Raymond, Dr. Margaret E., Executive Director, Center for 
      Research on Education Outcomes, Hoover Institution, 
      Stanford University, Stanford, California..................    14
        Prepared statement of....................................    16
        Response to questions submitted for the record...........    66
    Smith, Dr. Eric J., Superintendent, Anne Arundel County 
      Public Schools, Annapolis, Maryland........................    20
        Prepared statement of....................................    21
    Vallas, Paul G., Chief Executive Officer, School District of 
      Philadelphia, Philadelphia, Pennsylvania...................    23
        Prepared statement of....................................    25


 
NO CHILD LEFT BEHIND: RAISING STUDENT ACHIEVEMENT IN AMERICA'S BIG CITY 
                                SCHOOLS

                              ----------                              


                        Wednesday, June 23, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:35 a.m., in 
room 2175, Rayburn House Office Building, Hon. John A. Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, Petri, McKeon, Castle, 
Ehlers, Isakson, Biggert, Platts, Tiberi, Osborne, Kline, 
Gingrey, Burns, Miller, Kildee, Andrews, Woolsey, Hinojosa, 
McCarthy, Tierney, Kind, Kucinich, Wu, Davis of California, 
McCollum, Davis of Illinois, and Bishop.
    Staff present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Joshua Holly, Director 
of Media Affairs; Sally Lovejoy, Director of Education and 
Human Resources Policy; Alanna Porter, Legislative Assistant; 
Deborah L. Samantar, Committee Clerk/Intern Coordinator; Alice 
Cain, Minority Legislative Associate/Education; Tom Kiley, 
Minority Press Secretary; John Lawrence, Minority Staff 
Director; Ricardo Martinez, Minority Legislative Associate/
Education; Alex Nock, Minority Legislative Associate/Education; 
Joe Novotny, Minority Legislative Assistant/Education; and 
Linda Theil, Minority Legislative Associate/Education.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    We're holding this hearing today to hear testimony on ``No 
Child Left Behind: Raising Student Achievement in America's Big 
City Schools.'' Now, opening statements are limited to the 
Chairman and Ranking Member. With that, I ask unanimous consent 
for the hearing record to remain open for 14 days to allow 
member statements and other extraneous material referenced 
during the hearing today to be submitted for the official 
record. Without objection, so ordered.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    I want to thank all of you for being here, especially our 
witnesses. Today is the ninth hearing held by the Committee on 
the implementation of No Child Left Behind. And we're here 
today to take a look at how No Child Left Behind is helping to 
improve student academic achievement in our nation's urban 
schools.
    Previous hearings held by this Committee have examined the 
benefits No Child Left Behind provides for rural schools, for 
schools with high numbers of students with disabilities, for 
states and schools working to put a quality teacher in every 
classroom.
    But with today's hearing, we turn our attention to the 
early results being seen in America's inner city schools, where 
the achievement gap between disadvantaged students and their 
peers has been--has perhaps been the most evident since the 
Elementary and Secondary Education Act was first enacted in 
1965. We all recognize improving our educational system is 
essential, not only to our society but to our nation's economy 
and competitiveness as well. President Bush recognized this 
when he made education reform his top domestic priority upon 
taking office 3 years ago. And the members of this Committee, 
Democrats and Republicans alike, were proud to work with him to 
produce a law that was uniquely bipartisan.
    That law was No Child Left Behind, and it has fundamentally 
changed the approach we take to Federal education spending. As 
a result of NCLB, our nation is spending far more than ever 
before on education. But we're also expecting more in exchange 
for that money: states and school districts are expected to 
improve academic achievement for all of their students, 
regardless of where they live, who their parents are, their 
backgrounds, or other factors.
    For too many years, states and school districts point--
pointing to rising overall student test scores for a school had 
accepted an ever increasing amount of Federal funding, even 
though certain groups of children were falling behind. States 
and schools were able to highlight aggregate data showing most 
students were making progress. But because they were required 
only to report this data in the aggregate, parents and 
taxpayers could be kept in the dark, when some children were 
actually losing ground.
    No Child Left Behind is ending this practice. The law 
requires student test data be broken down by subgroup and 
reported to the public. Now achievement gaps between 
disadvantaged students and their peers, once hidden from public 
view, are public knowledge for all to see. The law is shining a 
bright spotlight on the most neglected corners of our public 
education system. The very corners of the classroom hidden from 
public view during the aggregate days are now beginning to see 
some of the early payoff for parents and students.
    One report released earlier this year by the Council of 
Great City Schools, which we'll hear more about during Dr. 
Casserly's testimony, shows students in the nation's big city 
schools posted significant increases in math and reading test 
scores during the first year of No Child Left Behind. The 
report shows students in 61 school districts, in 37 states, 
made improvements on fourth- and eighth-grade math and reading 
assessments. And the authors of the report--partially credit 
the reforms in No Child Left Behind for these gains.
    This year one of the Council of Great City Schools member 
school districts, which also happens to be in my congressional 
district, showed considerable progress on math and reading 
tests again this year. The fourth-grade reading test scores in 
the Dayton Public Schools increased by 9 percentage points, 
from 25 percent passing last year to 34 percent passing this 
year.
    In math, Dayton fourth-graders showed another 9 percent 
gain, going from 22 percent passing on last year's test score 
to 31 percent this year. And state-wide, math scores have also 
improved dramatically, from 58 percent last year to 66 percent 
this year. Maybe not as much progress as some would hope, but 
certainly we're seeing progress.
    As other states release their test data, we're seeing 
similar proof that student achievement is on the rise and 
achievement gaps are closing.
    In Maryland, 71 percent of third-graders passed the reading 
exam this year, as compared to 58 percent in 2003. Limited 
English proficient students posted an impressive 27-point 
increase in reading scores this year.
    Delaware students have also posted significant gains this 
year. Student scores in three out of four grade levels improved 
in all three subjects tested, reading, writing, and math. Now 
fifth-grade reading performance in Delaware climbed to 85 
percent, a 7-percent increase from last year.
    Florida has also seen an increase in the number of schools 
that they expect to meet adequate yearly progress standards 
this year.
    Now these increases are early evidence that the law is 
working as intended. Schools and communities are responding to 
No Child Left Behind by focusing on closing the achievement gap 
like never before. Instead of making excuses, many are making 
changes. And those changes appear to be making a difference. As 
the Great City School report says, ``They're beating the 
odds.''
    Is the news as good as it appears? How are they doing it? 
What challenges lie ahead? And we're interested in knowing what 
lessons others can draw from the experience in our inner-city 
schools.
    So I'd like to thank all of our distinguished witnesses for 
being here, and thank all of you who've shown your interest in 
coming today. And with that, I'd like to yield to my friend and 
colleague, Mr. Miller.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Good morning. Thank you all for being here for the tenth hearing 
held by the House Education & the Workforce Committee on the 
implementation of the No Child Left Behind Act.
    We're here today to take a look at how the No Child Left Behind Act 
is helping to improve student academic achievement in our nation's 
urban schools.
    Previous hearings held by this committee have examined the benefits 
No Child Left Behind provides for rural schools; for schools with high 
numbers of students with disabilities; and for states and schools 
working to put a quality teacher in every classroom. But with today's 
hearing we turn our attention to the early results being seen in 
America's inner-city schools, where the achievement gap between 
disadvantaged students and their peers has perhaps been most evident 
since the Elementary & Secondary Education Act was first enacted in 
1965.
    We all recognize improving our educational system is essential not 
only to our society, but to our nation's economy and competitiveness as 
well. President Bush recognized this and made education reform his top 
domestic priority upon taking office three years ago. And the members 
of this committee--Democrat and Republican alike--were proud to work 
with him to produce a law that was uniquely bipartisan. That law was 
the No Child Left Behind Act, and it has fundamentally changed the 
approach we take to federal education spending. As a result of NCLB, 
our nation is spending far more than ever before on education--but 
we're also expecting more. In exchange for that funding, states and 
school districts are expected to improve academic achievement for all 
of their students--regardless of where they live, who their parents 
are, their backgrounds, or other factors.
    For too many years, states and school districts--pointing to rising 
overall student test scores for a school--had accepted an ever-
increasing amount of federal funding even though certain groups of 
children were falling behind. States and schools were able to highlight 
``aggregate'' data showing most students were making progress. But 
because they were required only to report this data in the aggregate, 
parents and taxpayers could be kept in the dark when some children were 
actually losing ground.
    No Child Left Behind is ending this practice. The law requires 
student test data to be broken down by subgroup and reported to the 
public. Now achievement gaps between disadvantaged students and their 
peers, once hidden from public view, are public knowledge for all to 
see. The law is shining a brilliant spotlight on the most neglected 
corners of our public education system--the very corners of the 
classroom hidden from public view during the ``aggregate'' data days. 
We're now beginning to see some of the early payoff for parents and 
students.
    One report released earlier this year by the Council of the Great 
City Schools--which we'll hear more about during Dr. Casserly's 
testimony--shows students in the nation's big city schools posted 
significant increases in math and reading test scores during the first 
year of NCLB implementation. The report shows students in 61 school 
districts in 37 states made improvements on fourth and eighth grade 
math and reading assessments. The authors of the report partially 
credit the reforms in NCLB for these gains.
    This year, one of the Council of the Great City Schools' member 
school districts--which also happens to be in my congressional 
district--showed considerable progress on math and reading tests again 
this year. Fourth grade reading test scores in the Dayton Public 
Schools increased by 9 percentage points--from 25 percent passing last 
year to 34 percent passing this year. In math, Dayton fourth graders 
showed another 9 point gain--going from 22 percent passing on last 
year's test to 31 percent this year. Statewide, fourth grade math 
scores have also improved dramatically, from 58 percent last year to 66 
percent this year.
    As other states release their test data, we're seeing similar proof 
that student achievement is on the rise and achievement gaps are 
closing. In Maryland, 71 percent of third graders passed the reading 
exam this year, as compared to 58 percent in 2003. Limited English 
Proficient (LEP) students posted an impressive 27 point increase in 
reading scores this year.
    Delaware students have also posted significant gains this year. 
Student scores in three out of four grade levels improved in all three 
subjects tested--reading, writing and math. Fifth grade reading 
performance in Delaware climbed to 85 percent, a seven percentage point 
increase from last year. Florida has also seen an increase in the 
number of schools they expect to meet their Adequate Yearly Progress 
(AYP) standards this year.
    These increases are early evidence that the law is working as 
intended. Schools and communities are responding to No Child Left 
Behind by focusing on closing the achievement gap like never before. 
Instead of making excuses, many are making changes--and those changes 
appear to be making a difference. As the Great City Schools report 
says, they're ``beating the odds.'' Is the news as good as it appears? 
How are they doing it? What challenges lie ahead? We're interested in 
knowing what lessons others can draw from the experience in our inner-
city schools.
    I would like to thank everyone for attending today. I'd especially 
like to thank our distinguished witnesses for their participation. I 
look forward to your testimony.
                                 ______
                                 

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. Thank you very much, and I want to thank 
Chairman Boehner for holding this hearing--as he pointed out, 
one in a series of hearings--and I'm delighted that he's 
assembled this panel, because of your wealth of knowledge and 
experience in dealing with many of the issues that we've shown 
concern about over the years. But also because it focuses on 
the central and the exceedingly important goal of No Child Left 
Behind, and that is, obviously, eliminating the achievement gap 
among low-income and minority children. And I share the 
excitement of the Chairman with the report of the Council of 
Great City Schools, showing improvement among schools in very 
difficult environments and hope that it signals future changes.
    I continue to be concerned about whether or not we have 
properly funded this act so that we can get that continuous 
improvement over the long term. I and many of my colleagues 
believe that the act currently is short about $27 billion, and 
we believe that that would make a substantial difference in our 
ability to maintain these improvements that you're going to 
report on today.
    And that raises a couple of questions that I hope you--we 
will have a chance to address later, maybe in your testimony, 
but maybe in the questions. And that is, in terms of the 
prioritizing of the spending under the act, whether you think 
it's right or wrong or whether you would change it around to 
help you sustain these results or improve these results. I 
think it's important for us to know clearly the implementation 
of the act--some of us have had trouble with the 
implementation--we believe that--we've introduced the NCLB 
Fairness Act that would take schools that have previously 
failed to comply, use the standards now set by the department 
and the changes for last year. You can discuss that.
    But also I guess the question that really hounds me is that 
many of you have had experiences in getting a bump in 
performance. And we know, in my own case, the new 
superintendent, a change in the school board, a refocusing of 
goals gets us these bumps in performance. The new reading 
program gets us a bump in grade performance in schools. The 
question is--the goal of this legislation, of course, is that 
we make this continuous improvement over a period of 12 years, 
that we sustain a bump which would be precedent-setting 
compared to what happens in most areas of improvement where we 
get two, maybe we get 3 years' improvement, then it seems to 
plateau out. What should we be doing in terms of thinking about 
helping these districts that have made this kind of 
improvement, those who we hope will make it in the future, be 
able to sustain it? Because that will be the real test as to 
whether or not this gap in fact gets closed that we've put so 
much emphasis on.
    And so I look forward to your testimony. I would hope that 
we would be able to discuss these matters of continuous 
improvement, of funding, and of implementation of the act and 
the guidance that you have received.
    So thank you very much for being here this morning. We look 
forward to hearing from you.
    [The prepared statement of Hon. George Miller follows:]

Statement of Hon. George Miller, Ranking Member, Committee on Education 
                           and the Workforce

    Good morning. I'm looking forward to today's hearing because it 
focuses on a central--and exceedingly important--goal of NCLB: 
eliminating the achievement gap among low-income and minority children. 
Our witnesses have great expertise in this area and I'm eager to hear 
their perspectives' both about what is working well so far and the 
challenges they continue to face.
    I am pleased that the Council of Great City Schools has found that 
in the first year of NCLB, students in our urban public schools are 
advancing academically. It is very encouraging that these students are 
posting significant gains in both reading and math.
    But reform without resources isn't sustainable over the long term. 
We're turning our backs on our children by not fully funding NCLB--
especially the Title I program.
    Since NCLB's enactment, President Bush and the Republican Congress 
have underfunded NCLB by $27 billion. The shortfall in the President's 
budget next year is $9.4 billion.
    I am working to try to increase the amount of funding for NCLB next 
year. I am interested in hearing from our panel about whether the 
schools they are working with have the resources they need to provide 
every child with a quality education.
    I am also interested in knowing how you would prioritize the 
spending if we are successful in getting even a modest funding increase 
for NCLB. How could extra funding make the most difference?
    I am also concerned that we've turned our backs on properly 
implementing this law. A problem of particular concern is a basic 
fairness issue: schools were forced to have their initial AYP results 
calculated before the Bush Administration had released crucial guidance 
to schools.
    Now that the guidelines are in place, the Department of Education 
is not permitting schools to recalculate their AYP based on the 
standards set in the Department's own guidelines. So, some schools that 
would make AYP using these standards are being identified as needing 
improvement.
    Misidentifying successful schools as needing improvement will 
dilute--rather than increase--the amount of assistance available to 
schools that do need to improve.
    A related problem is that it will be difficult to determine whether 
reforms are working if schools are judged on different criteria for 
different years. How can we possibly tell if schools are making 
progress if they are held to different standards different years?
    The Secretary of Education has cited the lack of any legislative 
authority as an obstacle to applying the regulations retroactively.
    To address these problems and provide the Secretary with this 
authority, Senator Kennedy and I introduced the NCLB Fairness Act last 
week. It gives schools the flexibility to have their AYP for last year 
recalculated based on the Department's guidance on children with 
disabilities and limited English skills.
    I am pleased that all of the Democrats on the committee have co-
sponsored it. I hope all of our Republican colleagues will join us. 
Congress should respond to the needs of schools by enacting this bill.
    Nothing we will do this year on this committee is more important 
that ensuring that we live up to No Child Left Behind's promise of a 
quality education for every child. I appreciate all that each of you 
are doing to make this a reality and look forward to hearing from you.
    Thank you Mr. Chairman.
                                 ______
                                 
    Chairman Boehner. Thank you, Mr. Miller. And while Mr. 
Miller and I may have disagreements on whether the funding 
glass is half full or half empty, I think I can speak for both 
of us in terms of our commitment to make this law work and to 
help those children in America who today aren't getting the 
best chance at a decent education.
    It's my pleasure to introduce our distinguished panel of 
witnesses. Our first witness is Dr. Michael Casserly. Dr. 
Casserly has served as the executive director of the Council of 
Great City Schools, the nation's primary coalition of large 
urban public school systems, since January 1992. And before 
assuming this position, Dr. Casserly served as the 
organization's director of legislation and research for 15 
years.
    Then we'll hear from Dr. Margaret Raymond. Dr. Raymond is 
the director of the Center for Research on Education Outcomes, 
which analyzes education reform efforts around the country. In 
addition to her work at the Center for Research on Education 
Outcomes, Dr. Raymond has taught in the public policy analysis 
program at the University of Rochester since 1992.
    Then we'll hear from Dr. Eric Smith. Since July of 2003, 
Dr. Smith's been the superintendent of the Anne Arundel County 
Public Schools. And prior to his work in Maryland, Dr. Smith 
was the superintendent for the Charlotte-Mecklenburg schools in 
North Carolina, where he was a recipient of the 2002 
Superintendent of the Year Award. And prior to becoming a 
superintendent, Dr. Smith was a principal and teacher in 
Orlando, Florida.
    Then we'll hear from Mr. Paul Vallas. Mr. Vallas is the 
chief executive officer of the school district of Philadelphia. 
And prior to this, Mr. Vallas served as the chief executive 
officer of Chicago public schools from 1995 through 2001. Mr. 
Vallas is implementing a sweeping district-wide reforms in 
Philadelphia, duplicating many of the approaches that changed 
the Chicago public school system from one of the most under-
performing in the Nation to a nationally recognized model for 
education reform.
    And then we'll hear from Dr. Marcus Newsome. Dr. Newsome is 
currently superintendent of the Newport News public schools. 
And he's also served as regional executive director in Prince 
George's County, Maryland, public school system, as well as a 
teacher in the District of Columbia public schools.
    And before the witnesses begin, we all know about the 
lights. Don't get too worried about the lights, but don't get 
too carried away either. And the members will all ask their 
questions when the entire panel is finished.
    And with that, Dr. Casserly, you may begin.

   STATEMENT OF DR. MICHAEL D. CASSERLY, EXECUTIVE DIRECTOR, 
       COUNCIL OF THE GREAT CITY SCHOOLS, WASHINGTON, DC

    Dr. Casserly. Thank you very much. Good morning. My name is 
Michael Casserly. I'm the executive director of the Council of 
the Great City Schools. Thank you very much for this 
opportunity to testify, and I would like to take up some of the 
issues on the implementation and sustaining gains that Mr. 
Miller raised during the question-and-answer period.
    Mr. Chairman, I've been asked to focus my testimony this 
morning on the findings of a report that my organization 
recently published, called ``Beating the Odds: A City by City 
Analysis of Student Performance and Achievement Gaps on State 
Assessments,'' and to offer some perspective on the initial 
impact of No Child Left Behind on student achievement in the 
nation's big city schools.
    The council published this report, ``Beating the Odds,'' in 
March 2004. It was the fourth edition of this study and 
contains detailed statistics on the percentages of urban school 
students achieving at or above proficiency levels on each 
city's respective state test through spring 2003. We have 
published this report annually since 2001 to make it clear to 
the American people that our urban schools are strongly in 
favor of the standards movement and are thoroughly committed to 
higher performance and accountability; to track our progress on 
academic goals that the Nation has set for us; and to better 
understand the effects of the reforms that we are pursuing.
    Our most recent report attempted to answer the question, 
``Have urban schools improved student performance since No 
Child Left Behind was enacted?'' The answer appears to be yes. 
The evidence from ``Beating the Odds IV'' and other sources 
suggests that the nation's big city schools have seen important 
gains in reading and math achievement since No Child Left 
Behind.
    Between 2002 and 2003 school years, the percentage of urban 
fourth-graders scoring at or above proficiency levels on their 
respective state reading test increased from 42.9 percent to 
47.8 percent, an increase of 4.9 percentage points. The 
percentage of urban fourth-graders scoring at or above 
proficiency levels on their respective state math test 
increased from 44.2 percent to 51 percent, an increase of 6.8 
percentage points.
    The percentage of urban eighth-graders, moreover, scoring 
at or above proficiency levels stayed approximately level at 
about 37 percent and the percentage of urban eighth-graders 
scoring at or above proficiency levels in math increased from 
36.4 percent to 39.4 percent, a gain of 3 percentage points.
    The council also looked at the percentage of urban school 
districts that had posted reading and math gains between 2002 
and 2003. The results showed that about three-quarters of our 
cities posted reading and math gains in half or more of the 
grades tested, and about half posted faster gains than their 
respective states. In addition, the report found stronger--
strong gains among African-American and Hispanic students in 
our urban schools.
    Many of these findings from ``Beating the Odds'' are 
corroborated by reading data from the Trial Urban NAEP 
Assessment. These data show that the reading performance among 
urban fourth-graders increased by a statistically significant 
margin between 2002 and 2003. Reading performance among urban 
eighth-graders remained unchanged, the same finding as we saw 
in the state data. Conversely, the percentage of urban fourth-
graders reading below basic on NAEP decreased significantly 
between 2002 and 2003.
    These urban NAEP gains, moreover, came during a period in 
which the Nation showed little overall improvement in reading 
performance, meaning that city school districts were not being 
pulled upward by a larger national effect. They were doing this 
on their own.
    The data from previous editions from ``Beating the Odds'' 
also suggest that improvements in urban school achievement, 
particularly in math, pre-date No Child Left Behind by a number 
of years. Reading gains, however, appear to be more recent. We 
saw signs in previous reports that we have done that the 
numbers of urban students approaching the proficiency bar in 
reading were increasing, but we had not seen them meeting or 
exceeding that bar until this most recent report.
    In other words, ``Beating the Odds'' suggests that big city 
schools did not begin implementing No Child Left Behind from a 
standing position. They had a running start.
    The question about what is producing these gains is 
difficult to answer. We suspect that the improvements are 
attributable to the standards movement and the changes it has 
triggered in urban schools; to the hard work and commitment of 
urban school administrators, teachers, and boards across the 
country, and the hard work of others who want to see us 
succeed. We also give some credit to No Child Left Behind for 
focusing our attention more sharply on student achievement. It 
would be difficult, of course, to claim that the new law has 
had a direct effect programmatically in just 1 year, but the 
gains may be attributable in part to the increasing focus that 
No Child Left Behind has brought to student achievement.
    The Committee should know that we understand that we have a 
long way to go to attain the goals that No Child Left Behind 
has set for us. Our performance is still way too low. Still, 
the data from No Child--from ``Beating the Odds'' present an 
emerging and promising picture of how America's great city 
schools are performing and strongly suggest that we are making 
progress.
    More importantly, the data indicate that improvement is 
possible on a large scale, not just school by school. The 
public should no longer wonder whether urban education can be 
saved. It can. The public should no longer worry about whether 
student achievement can be raised. It will be. The question on 
the table now is, how fast. That we have changed the question 
is by itself a sign of the progress we are starting to make.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Casserly follows:]

 Statement of Dr. Michael D. Casserly, Executive Director, Council of 
                   Great City Schools, Washington, DC

[GRAPHIC] [TIFF OMITTED] T4513.001

[GRAPHIC] [TIFF OMITTED] T4513.002

[GRAPHIC] [TIFF OMITTED] T4513.003

[GRAPHIC] [TIFF OMITTED] T4513.004

[GRAPHIC] [TIFF OMITTED] T4513.005

                                ------                                

    Chairman Boehner. Thank you.
    Dr. Raymond.

    STATEMENT OF DR. MARGARET RAYMOND, DIRECTOR, CENTER FOR 
    RESEARCH ON EDUCATION OUTCOMES, THE HOOVER INSTITUTION, 
           STANFORD UNIVERSITY, STANFORD, CALIFORNIA

    Dr. Raymond. Good morning. My name is Margaret Raymond, and 
I am the director of the Center for Research on Education 
Outcomes at the Hoover Institution of Stanford University. I am 
grateful to be able to share with you the latest research done 
with my co-author, Eric Hanushek, on the impacts of No Child 
Left Behind (NCLB) on student performance. I will describe our 
approach and summarize the findings. A copy of the full paper 
on which my testimony is based has been submitted to the 
record.
    NCLB builds on existing state accountability policies which 
were adopted one by one over a period of years. States either 
adopted a report card system, which merely publicized 
performance, or a consequence system that included rewards and 
sanctions.
    To isolate the effects of accountability, we estimated 
statistical models of gains on the National Assessment of 
Educational Progress (NAEP), controlling for other possible 
influences on student performance. Since the thrust of 
accountability, and NCLB, is on low achievers, which include 
minority groups, we also examined the equivalence of impact on 
student subgroups.
    An implicit assumption is that accountability, as revealed 
through mandatory disaggregation of performance by subgroups, 
will both close existing gaps and improve performance for all. 
To test this, we disaggregated the state results for whites, 
blacks, and Hispanics. The findings are as follows: First, 
students are better off with accountability. The evidence shows 
that introduction of accountability has had a positive impact 
on student performance. Students covered by systematic 
accountability systems gained an average of 3.6 NAEP points 
more than students in states without accountability. This is 
roughly a fifth of a standard deviation greater gains.
    But we find that just using report cards does not influence 
performance. Consequences matter. Thus it seems important to 
include direct incentives rather than relying on indirect 
forces.
    Second, accountability helps all students, but it helps 
some more than others. When we break out the performance of 
subgroups, Hispanic students are found to gain most from 
accountability, while blacks gain least. That is, 
accountability provides Hispanics an extra boost relative to 
white gains, but for black students the relative effect is 
negative.
    In states with consequential accountability, the white-
Hispanic difference in gains narrowed over the 10 years of 
state accountability, but the white-black differences in gains 
widened. This means that blacks still benefit from having 
accountability, but not as much as whites. And Hispanics 
benefit more than whites.
    Accountability systems thus lead to overall improvements in 
student performance, but they do not uniformly meet the 
objectives of closing the achievement gaps. The well-known 
principle that it's generally not feasible to satisfy multiple 
objectives with a single policy instrument finds support here.
    So what do the results tell us? Because NCLB called for 
each state to design its own system, and because most states 
keyed off of their existing systems, this analysis of the early 
impacts of state systems provides information about what can be 
expected with full implementation of NCLB.
    The importance on focusing on improved academic outcomes 
cannot be overstated. Higher achievement leads to higher 
earnings of individuals and larger growth of the economy. To 
put the matter in context, if we could move the average 
achievement of students to what is today the 75th percentile, 
we would realize a boost in future productivity and earnings 
that could fund the entire amount spent on K-12 public 
education in the United States just on that gain. Policies such 
as accountability can contribute meaningfully to such a result, 
and NCLB is doing that.
    The most notable result from our analysis is that 
accountability is important for students in the United States. 
Across a wide range of designs, they have a positive impact on 
achievement. But that impact relies on attaching consequences 
to performance. So NCLB's use of consequences is supported by 
this analysis and suggests that other incentive mechanisms 
might be appropriate to try to further accelerate student 
gains.
    The varying effect by student subgroups raises important 
policy questions. All students are better off with 
accountability than without it. But in relative terms, when the 
effect of the pre-existing achievement gaps and accountability 
are taken together, accountability seems to mitigate, but not 
reverse, a widening of the achievement gap. Thus there's no one 
answer that will lead to all the improvements that we desire. 
Additional policies are needed to realize the multiple 
objectives.
    Finally, while we have not dwelled on it, the current state 
systems are not particularly strong. They lead to achievement 
gains, regardless, on the order of two-tenths of a standard 
deviation. If we get this effect size with such blunt 
instruments as we have today, it seems plausible to expect 
additional gains if the systems are refined.
    The accountability premium, while not revolutionary, is 
notable when compared to alternative reforms that failed to 
yield such impacts on a broad or sustained basis. As 
accountability systems evolve, they are likely to have 
considerably stronger impacts if they can be moved toward more 
precise incentives for individual schools.
    Thank you.
    [The prepared statement of Dr. Raymond follows:]


   Statement of Margaret E. Raymond, Executive Director, Center for 
     Research on Education Outcomes, Hoover Institution, Stanford 
                    University, Stanford, California

Abstract
    The leading school reform policy in the United States revolves 
around strong accountability of schools with consequences for 
performance. The federal government's involvement through the No Child 
Left Behind Act of 2001 reinforces the prior movement of many states 
toward policies based on measured student achievement. Analysis of 
state achievement growth as measured by the National Assessment of 
Educational progress shows that accountability systems introduced 
during the 1990s had a clear positive impact on student achievement. 
This single policy instrument did not, however, also lead to any 
narrowing in the black-white achievement gap (though it did narrow the 
Hispanic-white achievement gap). An additional issue surrounding 
stronger accountability has been a concern about unintended 
consequences related to such things as higher exclusion rates from 
testing, increased drop-out rates, and the like. This analysis of 
special education placement rates, a frequently identified area of 
concern, does not show any responsiveness to the introduction of 
accountability systems.

Introduction
    The cornerstone of Federal educational policy has been expansion of 
school accountability based on measured student test performance. The 
policy has been controversial for a variety of reasons, leading to 
assertions that it has distorted schools in undesirable ways, that is 
has led to gaming and unintended consequences, and that it has not even 
accomplished its objectives of improving student achievement. The 
research completed with my co-author Eric Hanushek, provides evidence 
on the expected effects of NCLB not only on student performance but 
also on other potential consequences. Even though accountability 
policies are relatively new in public education, their controversial 
nature has stimulated an accumulating body of systematic evidence on 
their effects. The work covered here is consistent with earlier 
studies.
    The findings show that introducing accountability systems into a 
state tends to lead to larger achievement growth than would have 
occurred without accountability. The analysis, however, indicates that 
just reporting results has minimal impact on student performance and 
that the force of accountability comes from attaching consequences to 
school performance. This finding supports the contested provisions of 
NCLB that impose sanctions on failing schools.
    This testimony presents a brief description of the analytic 
approach, followed by a summary of the findings. A copy of the full 
paper, Does School Accountability Lead to Improved Student 
Performance?, has been submitted to the record.

Analytic Approach
    NCLB builds on the existing state accountability policies, which 
were adopted individually over a period of years. States differed by 
whether they adopted a ``report card'' system, which merely publicized 
the performance results, and ``consequence'' states that designed 
rewards and sanctions into their policies. The pattern of adoption 
makes it possible to take snapshots of student achievement across 
states at different points in time and observe how the implementation 
of accountability policies affects the performance of student cohorts. 
Our approach uses information about state differences in mathematics 
and reading performance as identified by the National Assessment of 
Educational Progress (NAEP). NAEP offers a consistent yardstick 
nationwide of how much students are learning, something that individual 
state achievement tests do not provide. Because NAEP tests 4th and 8th 
graders quadrennially, the 4th graders in one test administration 
become the 8th graders in the next. So the differences in scores 
between the 4th and 8th grade tests track gains for a cohort in each 
state. NAEP has been around long enough that we have two cohorts to 
study for each Math and Reading.
    To isolate the effects of accountability, we estimated statistical 
models that allowed for other possible influences on student 
achievement. We included explicit measures for major categories of time 
varying inputs: parental education, school spending, and racial 
exposure in the schools. We controlled for any other state policies 
that lead to trends up or down in student performance in each state. In 
related analysis, special education placement rates are used to examine 
if accountability leads to an increase in exclusions which would 
suggest that schools are attempting to game the results. Finally, for a 
variety of reasons, the effects of accountability may not be uniform. 
To identify differences by race or ethnicity, we disaggregate the state 
results for whites, blacks, and Hispanics. This approach also permits a 
deeper examination of whether the policy creates other unintended 
consequences.

Research Findings
    Complete details of the results are presented in the full paper; 
here, we focus on findings in three key areas: 1) the impact of 
accountability on student performance; 2) differences in impact of 
accountability across racial/ethnic groups, and 3) evidence of 
systematic use of exclusions to improve aggregate results. Each is 
discussed separately.

1. Students are better off with accountability.
    We find consistent evidence that introduction of state 
accountability has a positive impact on student performance. 
Specifically, states that introduced consequential accountability 
systems early, tended to show more rapid gains in NAEP performance, 
holding other inputs and policies constant. Students in states 
employing systematic accountability systems policies gained an average 
of 3.6 NAEP points more than students in states that had no 
accountability. This equates to roughly a fifth of a standard 
distribution greater gains.
    Interestingly, we find that just using report cards does not have a 
significant influence on performance. Students in states that operate 
report card accountability policies do show slightly positive gains, 
but they are not significantly different from zero. Thus, it seems 
important that policies include direct incentives rather than rely on 
indirect forces operating through just information.
    Other interesting findings of the model concern endowments for 
students and for schools. Large differences in per pupil funding did 
not influence scores. The pattern of NAEP scores across states is not 
explained by spending. The impact of aggregate state spending is 
consistently small and statistically insignificant. We also find that 
test taking rates affect performance, but that differences in these 
rates across states does not affect our conclusions on accountability.

2. Accountability helps all students, but helps some more than others.
    Much of the explicit interest in accountability and the federal 
legislation, however, focuses on low achievers. The differences in both 
absolute achievement and in rates of change by race and ethnicity are 
well known. Given the generally lower achievement by minority groups, 
an implicit assumption is that accountability--as revealed through 
mandatory disaggregation of performance for racial and ethnic groups--
will simultaneously close the large achievement racial/ethnic gaps 
along with improving all performance.
    Since earlier research had assumed that accountability was 
equivalent across all students, we examined the impact of 
accountability policies by race. When we look specifically at the 
performance of subgroups, we find that Hispanic students gain most from 
accountability while blacks gain least. That is, accountability 
provides Hispanics an extra boost relative to whites, but for Black 
students, the relative effect is negative. To be clear, all students 
benefit some from the presence of a consequential accountability 
system, but some benefit more than others. What this means is that 
blacks still gain a little from having accountability with consequences 
but not as much as whites, and Hispanics gain more than whites.
    A summary of the effects of accountability on student performance 
by race is presented in the table below.

[GRAPHIC] [TIFF OMITTED] T4513.006

    Accountability systems thus lead to overall improvements in student 
performance on NAEP mathematics and reading tests, but they do not 
uniformly meet the objective of closing achievement gaps. In states 
with consequential accountability, the white-Hispanic difference in 
gains narrowed in the 1990's, but the white-black differences in gains 
widened. This finding appears to be a single demonstration of the well-
known principal that satisfying multiple objectives with a single 
policy instrument is generally not feasible.

3. Accountability systems do not appear to prompt gaming of results 
        through exclusions.
    Since the widespread introduction of accountability, a strong 
interest has been whether more rigorous and consequential 
accountability also leads to other, less desirable impacts. For 
example, does accountability lead to increased cheating, more 
classifications of students as special education, or undesirable 
narrowing of teaching? To address a subset of these issues, we analyzed 
the rate of placement into special education across states but find no 
evidence of reaction in this dimension. Other researchers have found 
that the levels of special education placement differed before and 
after the adoption of accountability policies, and therefore conclude 
that accountability influenced the rates of placement. Our study of the 
issue, focused on the period 1995--2000, captured the period of largest 
activity in accountability adoption by states and also the historical 
trend of rising special education rates. The findings show that neither 
having an accountability system nor the number of years one is in place 
significantly effect the general trend in special education placement 
rates.

Interpreting the Results
    The importance of improved academic outcomes cannot be overstated. 
Higher achievement, as measured by the tests commonly used for 
accountability has been shown to have large impacts on the earnings of 
individuals and on the growth of the economy. To put the matter in 
context, if we could move the average achievement of students to what 
is today the 75th percentile, we would realize a boost in future 
productivity and earnings that would equal the total amount spent on K-
12 public education in the United States. In essence, we could 
completely fund American public primary and secondary education from 
the growth it would stimulate. Policies such as accountability can 
contribute meaningfully to such a result.
    We must use caution in drawing implications from the results 
presented here for No Child Left Behind. Because NCLB calls for each 
state to design its own system and because most states have keyed off 
of their existing systems, the analysis here of the impacts of state 
systems enacted prior to NCLB provides information about what can be 
expected with full implementation.
    The most meaningful result is that accountability is important for 
students in the United States (and in a variety of other countries that 
are pushing for better performance measurement). Despite the 
heterogeneity of designs (and the flaws they contain), we find that 
they have a positive impact on achievement.
    However, the impact holds just for states attaching consequences to 
performance. States that simply provide better information through 
report cards without attaching consequences to performance do not get 
significantly larger impacts over no accountability. Thus, the NCLB 
move toward adding consequences to accountability systems is supported 
by looking at the historic introduction of consequential accountability 
systems. These findings suggest that other incentives mechanisms might 
be appropriate to try to further accelerate student gains.
    We find that the overall positive effect of accountability varies 
by subgroup, with Hispanics benefiting most and blacks benefiting 
least. All students are better off with accountability than without it. 
But in relative terms, when the effects of the pre-existing achievement 
gap and accountability are taken together, accountability is seen to 
mitigate but not reverse a widening of the achievement gap. This is 
because whites gain more than blacks after accountability is 
introduced, so the racial achievement gap with blacks actually widens 
after the introduction of accountability.
    These findings, taken together, underscore the fact that there is 
no one answer that will lead to all of the improvements that we desire. 
The finding of differential effects of accountability raises a clear 
policy dilemma. A prime reason for the U.S. federal government to 
require each state to develop a test based accountability system 
involved raising the achievement of all students, particularly those at 
the bottom. It has done that, but not at the same rate across groups. 
We conclude from this that additional policies are needed to deal with 
the multiple objectives. Again, as is frequently the case, a single 
policy cannot effectively work for two different objectives--raising 
overall student performance and providing more equal outcomes across 
groups.
    The movement toward stronger accountability in schools has also 
suggested to many that there would be adverse consequences--more 
exclusions, higher dropout rates, a narrowing of the curriculum, and 
the like. While some existing research supports these presumptions, the 
work presented here (and supported by our earlier work) suggests that 
these concerns are overstated. Importantly, many of the adverse effects 
that involve ``gaming'' the system come from short run incentives that 
are unlikely to be strongly present over time. Our analysis of special 
education placement rates indicates clearly that accountability has not 
had an overall impact through this form of exclusions.
    Finally, while we have not dwelled on it, the currently available 
accountability systems are not particularly strong. A majority of the 
systems concentrates on overall achievement levels (with highly 
variable passing scores across states). Such systems do not generally 
provide clear signals about the value-added of schools. Instead they 
combine a variety of effects including those resulting from family 
background differences and neighborhood effects. As such, they cannot 
provide truly clear and strong incentives. Yet, even in the face of the 
rather blunt incentives from existing systems, the introduction of an 
accountability systems leads to achievement improvements on the order 
of 0.2 standard deviations. If we are able to realize this magnitude of 
effect with such blunt instruments as exist today, it seems plausible 
that we could get additional gains if the systems are refined. The 
benefits of accountability, while not revolutionary, are notable when 
compared to the failure to find alternative reforms that yield such 
impacts on a broad and sustained basis. As accountability systems 
evolve, they are likely to have considerably stronger impacts if they 
can be moved in the direction of more precise incentives for individual 
schools.
                                 ______
                                 
    [Attachments to Dr. Raymond's statement have been retained 
in the Committee's official files.]
    Chairman Boehner. Thank you.
    Dr. Smith.

   STATEMENT OF DR. ERIC SMITH, SUPERINTENDENT, ANNE ARUNDEL 
           COUNTY PUBLIC SCHOOLS, ANNAPOLIS, MARYLAND

    Dr. Smith. Thank you very much. It's a pleasure to be 
before you this morning. I'm Eric Smith, superintendent of 
schools in Anne Arundel County, Maryland. I would like to say 
that the changes that I have witnessed in Anne Arundel County, 
and previously in Charlotte-Mecklenburg, are certainly profound 
and very, very positive.
    I'll start with some of the major impacts of the No Child 
Left Behind legislation on how we look at education in America, 
that we actually view the business of education differently 
today as a result of the legislation than we did before. And as 
a result of us looking at education differently, we're coming 
up with different answers and different solutions that I do 
believe will end up in sustained progress in the years ahead.
    I'll point out one is a different view of our 
responsibility as educators, what we are in fact tasked to do. 
A shift from when I started in the business 32 years ago, from 
a view of pre-kindergarten through twelfth grade really having 
a function of sorting and sifting children then and helping to 
select those that needed to move on to higher education, to a 
view today of universal achievement at a high level. That shift 
is significant in how we view education in America.
    The second is one--a view of our own capacity as educators. 
I truly believe, even today, there are many educators that 
don't believe that all children have the capacity to exceed and 
excel. Certainly, historically we have not demonstrated that we 
hold that belief dear. In fact, because of No Child Left Behind 
and the requirement of the legislation, we as educators are 
looking at the business of teaching and learning differently in 
our understanding and increasing our confidence in our capacity 
to have achievement success with children from all backgrounds.
    I'll share also that the culture of education is changing, 
and these are some of the substantive issues that are bringing 
about a different result. We're moving from viewing education 
and the business of teaching as primarily an art form, that--
whereas--that has success on a random occurrence--schedule--to 
one of more strategic planning and teaching as a science. And 
this shift has resulted in very strong performance.
    I'd--result--I'll share with you this year's results from 
my current district. I cite two areas: one, third-grade 
reading. We made a 15-point increase in academic--in proficient 
or advanced level performance to 78 percent of our children 
proficient or above. For African-American children, it was a 
16-point increase from--to 61 percent proficient or above. 
Hispanic/Latino, an 18-point gain to 61 percent proficient or 
advanced. At the cost of No Child, for white children, a 13-
point gain to 83 percent proficient or advanced. And there was 
no subgroup that fell behind.
    Let's skip then to fifth-grade mathematics. I want to share 
with you that we showed a smaller increase but nevertheless--
excuse me, we showed a significant increase of 12 percent gain 
across the board to 76 percent of our children proficient or 
advanced. Again, gains for African-Americans of 17 percent; 
Hispanic/Latino, 22 percent; and white students, of 10 
percentage points. And again, no subgroup failed to make 
progress under the No Child Left Behind legislation.
    There are key issues that I think are fundamental. One is 
the issue of belief. The belief system that is embodied in the 
No Child Left Behind legislation is critical, in my view, to 
this nation's future. It is the key issue holding firm to the 
fact that children can learn and learn to the high level. The 
question is, learn what and at what level they will learn and 
achieve, is the question.
    The second is defining the work. What work do we expect our 
teachers to do every day in a classroom? One of the things 
we've learned from urban centers and other school districts 
across the country is that with lack of clarity as to what 
teaching and knowledge is to be imparted, we will not succeed. 
So the question for the nation--we look at NAEP results and 
others--are we moving our children to a competitive position as 
a result of this effort around No Child Left Behind? Again, are 
we asking our teachers to do the right work? I think it's 
becoming increasingly clear that our teachers have the capacity 
to deliver when they know what the work is that's to be done.
    The third critical issue in school districts and in 
application is one of time. Time is a critical piece, how you 
manage time, allowing teachers the time to cover the material 
that needs to be covered.
    Fourth area is the tools, and it's probably one of the 
biggest struggles that we have. How do we bring the right tools 
to the classroom so teachers can be successful? Our inability 
to get to good, clean, non-vendor-produced research around 
products--reading materials, math materials--that help our 
teachers succeed is a critical area that requires further work 
and further assistance.
    And finally, allowing our classrooms and our schools to 
have good, clean data, so that we can make decisions in a 
timely fashion.
    The final point--I can see the red light--the final point 
that I will share is, probably the most intriguing issue is 
around special education. I think that there are going to be 
strategies in the coming months and years that will help us to 
redefine the issue of special education and allow us to bring 
success to children that have historically been under-served, 
and see the same kind of gains with the special education 
population that we are seeing with other subgroups under No 
Child Left Behind.
    Thank you very much.
    [The prepared statement of Dr. Smith follows:]

  Statement of Dr. Eric J. Smith, Superintendent, Anne Arundel County 
                  Public Schools, Annapolis, Maryland

    The recent renewal of the Elementary and Secondary Education Act, 
known as the No Child Left Behind Act of 2002, is vital to the long 
term educational, economic, and social health of our nation. Its' 
mandate that schools must assess student performance yearly, share 
these data about disaggregated student groups, and provide consequences 
for schools failing to achieve Adequate Yearly Progress, has 
highlighted the issue that I have focused on as the Superintendent of 
four different school districts--that each child's education is 
important. This law has fundamentally transformed the debate about 
public education in this country by changing the discussion from one 
about the lack of student achievement and issues beyond the control of 
schools and school systems to one about using research-proven 
strategies to ensure that each child can read, compute, and write on 
grade level. The meaningful dialogue that has been generated could not 
have come at a more important time for our country. The changing 
demographics in our country have led to a more diverse student 
population; for example, students in my district speak over 60 
different languages. With such diversity, it is important to prepare 
all children, recent immigrants and native born alike, to high 
standards so that they may fully participate in our society. 
Thankfully, in some schools we are making a difference, educating all 
students to high levels. This should not occur just in shining new 
suburban schools sitting on a hill, but in every school across our 
nation, and that is our singular goal in Anne Arundel County--creating 
the opportunities for an excellent education for all 75,000 students in 
our district. If you believe as I do that the quality of education a 
child receives impacts their entire life, then the accountability 
measures of the No Child Left Behind Act are an important component of 
the effort to reinvent American public education. Accountability, in 
conjunction with other factors such as clarity about what should be 
taught; providing teachers and students with the time to teach and 
learn; using resources efficiently and effectively to maximize their 
power, and providing teachers with professional development that 
enables them to grow as professionals, can lead to sustained growth for 
all students.

Clarity about what to teach
    Anne Arundel County Public Schools has just received the results of 
its mandated state assessment in grades 3, 5, 8, and 10. These results 
demonstrate the importance of accountability in my district. We knew 
that for the last year school, 2002-2003, 63.8% of all third graders 
were proficient and advanced in reading. Some might think it is great 
that nearly two-thirds of the district's third graders were proficient 
in reading, but it highlighted for everyone that more than one-third of 
our third graders were basic in reading. I refuse to accept that some 
students can learn at high levels and that some students can't. This is 
something that we were able to focus on and improve. For the 2003-2004 
school year, 78.5% of third graders were proficient/advanced.
    How were we able to accomplish this improvement? We were able to 
clarify what was to be taught. This clarity began with the state 
developing a curriculum that was aligned with the state mandated 
assessment. However, Anne Arundel County went further. We adopted the 
tenets of the state curriculum and constructed curriculum guides and 
pacing guides that provided teachers for the first time clear direction 
about what to teach and when they should be teaching it. These guides 
have reduced the need to spend teacher instructional time deciding what 
to teach. Our teachers can now spend more time deciding how to best 
engage students with the curriculum.
    Another factor of clarity was the importance of providing teachers 
with a research based curriculum to teach reading and a structured math 
curriculum that would ensure that all students were given a solid 
foundation from which they could successfully participate in higher 
level courses. The use of both a published reading and math series has 
shown marked results for our students, with double-digit improvement in 
students' performance on statewide assessment. We have also increased 
the number of students taking and completing algebra I (a high school 
level course) in middle school to 21% of all 8th grade students, a 
substantial increase over the previous year.
Providing teachers and students with the time to teach and learn
    An important step was the restructuring of the way our teachers and 
students spend their school day. In our elementary schools, we asked 
teachers to spend double the amount of time they previously spent on 
reading instruction. This was done to ensure that students were reading 
on grade level, but it also will assist our special education 
population because research shows that many of the students identified 
as learning disabled are students that were not properly taught how to 
read. In our secondary schools, we established a block schedule of four 
90-minute classes per day on a rotating A/B day schedule. This schedule 
allows students at all achievement levels the flexibility to change 
their schedule to meet their individual needs. For example, a student 
who wants to participate in Advanced Placement chemistry and band now 
has a schedule that permits such action, while a student who needs 
additional support can also have an Advanced Placement seminar or other 
support class that will provide them with additional time to grasp key 
concepts covered in their regular class.
Using resources efficiently and effectively
    In this age of heightened accountability, it is imperative that 
public schools demonstrate to the public at large that we are utilizing 
the resources that we are provided as efficiently and effectively as 
possible. While I recognize that there have been additional funds 
allocated as a result of the No Child Left Behind legislation, I 
believe that more resources used effectively will ensure that this 
landmark legislation has the intended impact in all school districts. 
In Anne Arundel County Public Schools, we use a management system 
called the Project Management Oversight Committee. This committee acts 
as a governing body to establish strategies, monitor progress, and 
resolve issues that would prevent cross-departmental cooperation. In 
this way, our system continually examines its practices, how it is 
spending its resources, and most importantly, the return on this 
investment.
    One example of an initiative that went through this PMOC process is 
the building of a data warehouse. In Anne Arundel County, we have had 
to find a new vehicle for capturing, recording, and analyzing student 
achievement data. This will require the district to spend financial 
resources to fulfill this mandate, and yet these funds could also be 
used elsewhere. In this case, we recognize the impact that this new 
data collection and analysis system will have on classroom teachers and 
students, and we feel that the expense is justified, but again 
additional financial resources would be helpful.

Teacher professional development
    The quality of the teachers in Anne Arundel County is second to 
none. I am awed by their ability, and the recent results of our state 
mandated assessments point to their knowledge, competence, and 
willingness to work with our students to increase student achievement. 
I feel that it is important to provide teachers with meaningful and 
ongoing professional development that will allow them to work with 
their peers and increase their content and teaching knowledge. We have 
instituted mentoring programs for beginning teachers and provide all 
teachers with a rich assortment of activities that seek to increase 
their effectiveness in the classrooms of Anne Arundel County.

Conclusion
    The No Child Left Behind Act has transformed the debate about 
public education in America from blaming societal issues outside of 
schools' control to a focus on what we do control--our ability to teach 
every child to rigorous standards. This may be its central legacy. 
However the law is only the beginning. It requires a new level of 
accountability, but it does not provide all the answers or funds for 
what ails public education. I see it as a component of the plan that I 
have used in my tenure as Superintendent of Schools of Anne Arundel 
County--a plan that is beginning to demonstrate that all students can 
learn and achieve at high levels. I initially proved this plan when I 
was Superintendent of Schools in Charlotte Mecklenburg Public Schools. 
I focused on the achievement disparity between African American 
children and their peers and was able to reduce the ``gap'' as 
evidenced by the results of the Trial Urban National Assessment of 
Educational Performance. The improvements in all students' 
performances, but especially African American students, demonstrated to 
me that accountability is not the end result of public education 
reform. It is merely an integral component of a well-crafted 
comprehensive strategy for educating all students to high levels that 
requires clarity about what is taught, time to teach and learn, 
efficient and effective utilization of resources, and meaningful 
professional development for teachers. Given these components and 
accountability No Child Left Behind may accomplish what the name 
implies--that schools will indeed Leave No Child Left Behind.
                                 ______
                                 
    Chairman Boehner. Thank you.
    Mr. Vallas? Nice to see you. Welcome.

   STATEMENT OF PAUL VALLAS, CHIEF EXECUTIVE OFFICER, SCHOOL 
      DISTRICT OF PHILADELPHIA, PHILADELPHIA, PENNSYLVANIA

    Mr. Vallas. Nice to see you. Thank you, Mr. Chairman. Thank 
you--sorry about that. How's that? Thank you.
    Like any broad and sweeping reform of its nature, the No 
Child Left Behind Act has certainly drawn a great deal of 
attention recently. Passionate advocates for and against the 
act have filled the airwaves, the newspapers, and sometimes 
their own backyards with rhetoric espousing its virtues and 
deriding its failures. While there is certainly room for debate 
on the pros and cons of the act, there can be little doubt--
little debate about this fact: There is simply no time to waste 
when it comes to setting high expectations for our children, 
providing the needed resources for children to meet these 
expectations, and holding adults accountable for achieving 
these expectations.
    As head of America's sixth-largest school district, it's my 
belief that No Child Left Behind lays the groundwork for 
accomplishing the objectives. And we've made every effort to 
accomplish its mandates.
    The chief objective of the act is closing the achievement 
gap between majority groups and minority groups. The greatest 
tool of No Child Left Behind to achieve this objective, and I 
suspect the greatest object of consternation among many of my 
colleagues, is the disaggregation of test scores by subgroup. 
For the first time, we're able to shine a spotlight on groups 
that have been historically under-served. With this recognition 
comes our obligation to correct this historic imbalance and to 
structure the act so that it provides an opportunity to do so.
    Let me point out that 50 years after Brown versus Board of 
Education, at least over the last 20 years, the achievement gap 
is widening, and indeed, we've moved from segregated schools 50 
years ago to entirely segregated school districts 50 years 
later.
    The school district of Philadelphia has aggressively 
implemented all four phases of No Child Left Behind over the 
past 2 years. Those four phases are expanding comprehensive 
school choice options; providing intensive supplemental 
education services for the lowest-performing schools, for 
students who in effect don't have options to go anywhere else; 
implementing a rigorous corrective action plan for schools not 
making adequate yearly progress; and finally, aggressively 
recruiting highly qualified teachers.
    The handouts that I provided provide you with a list of our 
initiatives in detail under each of those four categories, but 
let me just summarize a few of them.
    Under expanding comprehensive school choice, you'll note 
that the district has 176 out of 263 schools identified as low 
performing schools, with over 45,000 children choosing to 
enroll this year in schools outside their neighborhood schools. 
Now the district has not only implemented the choice provisions 
mandated under No Child Left Behind, but we've expanded our 
choice provisions by creating charters and by magnetizing our 
neighborhood schools by putting exemplary programs, like 
International Baccalaureate programs, math, science, and 
technology academy programs--exemplary programs in neighborhood 
schools--and by breaking our large high schools, behemoth high 
schools into small neighborhood schools forming a neighborhood 
cluster, so you're creating school choice within individual 
neighborhoods.
    Under the provision calling for intensive supplemental 
education services in low performing schools, the district has 
targeted assistance to over 40,000 K through 9 students 
performing below grade level and over 60,000 summer school 
children who are under-performing.
    Now what we've done is we've created our own individualized 
unit, educational unit, qualifying for SES, Supplemental 
Educational Service, designation status, so the district, 
working through contract providers, can provide supplemental 
educational services in a very cost effective way. And I think 
our after-school extended-day program costs us about $300 per 
student as opposed to $1200 to $1800 that many of the private 
providers independently are providing. Plus allowing us to 
serve all the children who are not performing at grade level, 
or at least to make those services available. Again, I have a 
handout that details that issue.
    Third, under implementing corrective action plans in all of 
our schools, the district has developed mandatory rigorous and 
uniform K-12 standard-based instruction. Delivery models--we've 
really established an instructional, a managed instructional 
model that includes standardized curriculum, standardized 
intervention procedures, standardized professional development, 
an additional 100 hours of professional development for 
teachers, and has increased the amount of instructional time on 
task for children who are under-performing, so that they can 
close the gap by basically being provided with additional 
instructional time based in a quality classroom environment.
    Finally, the district has wholeheartedly embraced the 
provision requiring aggressive recruitment and retention of 
highly qualified teachers by doing alternative teacher 
certification, Teach America, Troops for Teachers, and by 
allowing retirees who reach retirement age to come back on 
contract and to continue to teach while collecting their--while 
being able collect their full pension benefits.
    Again, the school district has moved aggressively to 
implement the acts. Obviously there are issues that need to be 
addressed: the full funding of special education, the full 
funding of the mandates. You know, the district certainly can 
use additional money so that we can invest in the type of 
curriculum instructional initiatives that truly make a 
difference. But the bottom line is, I think, our district has 
demonstrated that we can move forward with the additional 
resources that we've been provided, and that we can engage in 
the type of best practices that will, in effect, close the gap.
    [The prepared statement of Mr. Vallas follows:]

 Statement of Paul G. Vallas, Chief Executive Officer, School District 
              of Philadelphia, Philadelphia, Pennsylvania

    Good morning. Thank you Chairman Boehner, Senior Democratic Member 
Miller, and other distinguished members of the Committee on Education 
and the Workforce for this opportunity to appear before you today. When 
Chairman Boehner asked me to testify here today on Philadelphia's 
implementation of the No Child Left Behind Act, I was both honored and 
humbled to appear. And given the Committee's focus on raising student 
achievement in urban school districts, I was delighted to accept his 
offer.
    Like any broad and sweeping reform of its nature, the No Child Left 
Behind Act has certainly drawn a great deal of attention recently. 
Passionate advocates both for and against the Act have filled the 
airwaves, the newspapers, and sometimes their own backyards with 
rhetoric espousing its virtues or deriding its failures. While there is 
certainly room for debate on the pros and cons of the Act, there can be 
little debate about this fact: there is simply no time to waste when it 
comes to setting high expectations for our children, providing the 
needed resources for children to meet these expectations, and holding 
adults accountable for achieving these expectations. As the head of 
America's sixth largest school district, it is my belief that the No 
Child Left Behind Act lays the groundwork for accomplishing these 
objectives, and I have made every effort to accomplish its mandates.
    The chief objective of the Act is closing the achievement gap 
between majority groups and minority groups. The greatest tool that 
NCLB provides to achieve this objective--and, I suspect, the greatest 
object of consternation of some of my colleagues--is the disaggregation 
of test scores by subgroup. For the first time, we are able to shine a 
spotlight on groups that have been historically underserved. With this 
recognition comes our obligation to provide whatever resources we have 
to correct this historic imbalance, and the structure of the Act 
provides districts with the opportunity to do so.
    The School District of Philadelphia has aggressively implemented 
all four phases of No Child Left Behind over the past two years. Those 
four phases are ``Expanding Comprehensive School Choice Options,'' 
providing ``Intensive Supplementary Education Services in Low 
Performing Schools,'' ``Implementing a Rigorous Corrective Action Plan 
for Schools Not Making Adequate Yearly Progress,'' and ``Aggressively 
Recruiting Highly Qualified Teachers.'' The handout you have been 
given, entitled ``School District of Philadelphia: Programming to 
Implement No Child Left Behind Legislation'' details what we have 
accomplished under each of these phases, but I would like to draw your 
attention to a few highlights.
    Under ``Expanding Comprehensive School Choice Options,'' you will 
note that the District has 176 out of our 263 schools identified as low 
performing schools. With that, over 45,000 students chose to enroll 
this year in schools outside of their neighborhood schools. But the 
District went beyond the limits of ``choice'' as a decision to be made 
between your neighborhood school and a ``higher performing school.'' In 
addition to meeting the choice mandates of No Child Left Behind, we 
have also formed innovative new school-by-school partnerships with 
universities, museums, private managers, and even companies like 
Microsoft to manage and assist our lowest performing schools. We have 
also seeded our schools with magnet programs, International 
Baccalaureate programs, honors classes, dual credit offerings, and 
advanced placement courses to provide real choice to our parents. The 
School District has enacted a 300% increase in the number of honors and 
advanced placement courses, because we believe that closing the ``high 
achievement'' gap is just as critical as closing the ``remedial'' gap 
for our children.
    Under the provision calling for ``Intensive Supplementary Education 
Services in Low Performing Schools,'' the District has targeted 
assistance for over 40,000 Grade 1-9 students performing below grade 
level in reading and mathematics through the implementation of a 
comprehensive extended day academic program in all district elementary, 
middle, and comprehensive high schools during the 2003-2004 school 
year. The District has also implemented a comprehensive mandatory six-
week summer school academic program in reading and mathematics for over 
58,000 Grade 3-10 students not meeting promotion requirements or 
performing below grade level. The District has contracted with Voyager, 
Princeton Review, and Kaplan to provide the curriculum and the 
professional development for these programs.
    The second part of your handout deals specifically with 
Supplemental Education Services, and I feel it is important to draw 
your attention to one of the provisions of NCLB here and how the School 
District of Philadelphia implemented its requirements. As the briefing 
indicates, Pennsylvania has approved, and the School District of 
Philadelphia has contracted with, 20 providers of Supplemental 
Education Services. The District's Intermediate Unit (Pennsylvania's 
version of ``Education Service Agencies'' has also been approved as a 
provider, so services to low-achieving students through Voyager and 
Princeton Review can also receive funding under this provision. We 
fully support the provision that calls for parents to be able to choose 
between different providers for tutoring and support for their child, 
and I certainly support a free-market model that has these providers 
compete to provide the best services. But in order to serve the largest 
number of students with the limited amount of resources we had 
available, the District pursued the IU-provider model and contracted 
directly with private providers. Under this model, the District was 
able to serve 40,000 children for 160 hours of instruction at $300 per 
child.
    Under ``Implementing a Rigorous Corrective Action Plan for Schools 
Not Making Adequate Yearly Progress,'' the District has developed a 
mandatory, rigorous, and uniform K-12 standards-based curriculum, 
instructional delivery models, instructional materials, and aligned 
professional development system for low-performing schools. We have 
also implemented a uniform district-wide assessment system to 
complement the results from our state assessment to provide yearly 
benchmarks for district and school accountability. As your handout 
indicates, we have provided a number of additional resources to provide 
support for our schools lagging behind in AYP. This includes changes in 
the management, structure, and organization of low performing schools 
that cannot demonstrate improved performance; 49 failing schools in 
Philadelphia were restructured with private and charter school 
management, 22 comprehensive high schools have implemented 9th grade 
academies designed to narrow the achievement gaps of students below 
grade level in reading and mathematics, and a number of failing middle 
schools have been converted into neighborhood K-8 magnet and high 
school programs.
    Finally, the District has wholeheartedly embraced the provisions 
requiring the ``Aggressive Recruitment and Retention of Highly 
Qualified Teachers.'' Under our Campaign for Human Capital, the 
District hired over 1200 new teachers this year working with programs 
like Troops for Teachers, Teach for America, our retired teacher 
program, and aggressive recruitment and retention practices. Even in 
spite of a substantive class-size reduction in grades K-3, which 
necessitated the hiring of an additional 400 teachers, we met our 
hiring objectives and opened the school year with almost no teacher 
vacancies.
    The School District of Philadelphia has chosen to aggressively 
implement the No Child Left Behind Act because its tenets are sound and 
its goals are clear: we must do all that we can to ensure that all of 
our children are reaching their full potential. There is certainly room 
for improvement, however. While no one should deny that meaningful 
increases in federal education funding have been achieved under No 
Child Left Behind (a 36% increase since 2001), providing more Title I 
resources, which can be used rather flexibly to support proven 
successful practices like reduced class size and after school 
assistance, should be a priority. Providing transportation resources 
for choice programs, which for Philadelphia has meant more than $7 
million in additional costs, would be a welcome assistance. Moving 
closer to a 40% funding of special education versus the current 18% 
funding is critical as disaggregated data shows how woefully inadequate 
our special education resources are. And complementing a standards and 
accountability movement such as the No Child Left Behind Act with a 
desperately needed school construction assistance program would be a 
smart investment in districts like Philadelphia whose walls have 
sometimes fallen faster than our test scores in past years.
    While we can't shortchange our children by failing to fund reforms, 
neither can we hold their futures hostage by waiting for a never-ending 
funding debate to resolve itself. The School District of Philadelphia 
has demonstrated that substantial education reform can be achieved by 
using existing resources to fund education priorities. In short, our 
philosophy is about sending all available dollars into the classroom. 
We will continue to use the tools provided us under the No Child Left 
Behind Act to accomplish this, and we will not allow excuses to get in 
the way of achievement. Thank you again for the opportunity to provide 
comment here today, and I welcome any questions you may have.
                                 ______
                                 
    [Attachments to Mr. Vallas' statement follow:]

    [GRAPHIC] [TIFF OMITTED] T4513.007
    
    [GRAPHIC] [TIFF OMITTED] T4513.008
    
    [GRAPHIC] [TIFF OMITTED] T4513.009
    
                                ------                                

    Chairman Boehner. Thank you.
    Dr. Newsome.

  STATEMENT OF DR. MARCUS J. NEWSOME, SUPERINTENDENT, NEWPORT 
       NEWS COUNTY PUBLIC SCHOOLS, NEWPORT NEWS, VIRGINIA

    Dr. Newsome. Good morning. Good morning. My name is Marcus 
Newsome, superintendent of Newport News public schools. I want 
to thank you for the opportunity to speak with you this morning 
regarding the achievement gap in public education.
    This is a real problem that must be solved if the dream of 
equal opportunity is to become a reality for all children in 
America. Our school division has 130--I'm sorry, 33,000 
students, which is considered a moderately sized urban school 
district. Forty-five percent of our students qualify for free 
or reduced federally subsidized meals.
    I was very pleased that the successes of our school 
division: four of our five high schools were recently 
identified as among the best high schools in America based on 
its performance on AP and International Baccalaureate programs, 
again, identified by Newsweek magazine. Eleven of our schools 
have been identified as Blue Ribbon Schools of Excellence by 
the Federal Government, and this is the largest number of 
schools of any school system in the Commonwealth of Virginia.
    For the seventh consecutive year, our school system has 
been selected by School-Match for What Parents Want Award, and 
the School-Match is a national recognized service that helps 
corporations and employees and families locate schools that 
match the needs of their children.
    And we have a program called Pair Schools Model, where 
schools that have made the leap from good to great are paired 
with other schools that have not yet made that leap. And this 
model is receiving national recognition. In fact, we have 17 
schools from Bristol, England, that have adopted this model.
    We have challenges, just as other school districts around 
the country. This year is the first year that Virginia has 
required exit exams for students to receive a high school 
diploma. When I came to the school district in August of 2003, 
30 percent of all seniors were in danger of not getting a 
diploma because they had not yet passed all six exit exams. But 
with the commitment of the staff and a focused process, we 
developed individualized academic plans for every single 
senior. And we are proud to say that as of last Friday, we 
reduced that number from 30 percent of our seniors who were in 
danger of not graduating to 1 percent. And so when we have a 
focused effort and the appropriate support, then we can 
accomplish the goal.
    In 1999, only one school met full accreditation by the 
Virginia Standards of Excellence--of Learning, I'm sorry. And 
in 2003, we have 26 schools. And unofficially, all high schools 
will be fully accredited when the results come out this school 
year.
    We often, as school systems, talk about our 
accomplishments, but unfortunately too many of our students are 
not being successful. Nationwide on the SAT exam, on the verbal 
portion of the exam, there's a 95 percent gap between white 
students and black students. And in the mathematics portion of 
the exam, there's a 108-point gap between white students and 
black students.
    According to the Educational Trust, the average African-
American student in the twelfth grade is reading on an eighth-
grade level. Only 7 percent of the students nationwide are 
enrolled in advanced placement courses and--statistics--are 
black students. The graduation gap is real also. In Virginia, 
the graduation rate is 64 percent for black students, 77 
percent for white students; and yeah, it's still too low.
    No Child Left Behind has focused our efforts on improving 
the quality of education for every student and accountability. 
And I think accountability is what we must focus on. This year 
we had an independent auditor to come in, Phi Delta Kappa, to 
conduct a curriculum instructional audit of our school system. 
And while they found that we had people who were working hard, 
they have a formula called Years to Parity, and they said if we 
continued to do business as usual, our minority groups would 
never reach parity in all of our schools. But, again, we are 
encouraged by the success that we see now.
    I would like to close by sharing the success of one program 
in our school system called An Achievable Dream Academy. It has 
the highest level of poverty in our school system. Ninety-eight 
percent of the students qualify for free or reduced federally 
subsidized meals. Ninety-eight percent of them are minority. 
Yet they have exceeded every standard. They have met full 
accreditation. They have met AYP. And they have done this 
because we have a community partnership.
    Rod Paige visited the school last week and he deemed it as 
one of the models for America. The Mutual of America, which is 
a Fortune 500 company, identified it as the most outstanding 
partnership program in the country from more than 700 entries, 
because these students achieve. The businesses, the military, 
the city government, local universities support the students in 
this school. They go to school 2 hours a day longer than their 
counterparts, 6 days a week, year-round. And these businesses 
provide $2000 more per year per student and guarantee every 
child a college scholarship.
    So I think the model is it needs to be a collaborative 
partnership, and in closing I would say, in the words of Jim 
Collins, who was the author of the best-selling book ``From 
Good to Great,'' if we expect schools to be great, we should 
also expect government to be great. And businesses to be great. 
And churches. And most importantly, families.
    Thank you.
    [The prepared statement of Dr. Newsome follows:]

 Statement of Dr. Marcus Newsome, Superintendent, Newport News County 
                 Public Schools, Newport News, Virginia

[GRAPHIC] [TIFF OMITTED] T4513.010

[GRAPHIC] [TIFF OMITTED] T4513.011

                                ------                                

    Chairman Boehner. Thank you, Dr. Newsome, and thank all of 
our witnesses for your excellent testimony.
    I've got so many questions I want to ask, I don't know 
where to begin. Let me ask the three school chiefs that are 
here to identify for me the biggest change that you've made 
over the last several years that have led to better test 
results, the biggest change you've made and the biggest 
challenge that you have in terms of what we can be helpful with 
you all.
    Mr. Vallas. I think the biggest change in that has brought 
about the strongest gains, the strongest improvement has been 
establishing a managed instructional system.
    If you look at all the research, if you look at the 
districts that have shown great success--and the counselors in 
grade schools a number of years ago did a wonderful study of 
large urban districts like Charlotte-Mecklenberg and others who 
had great city schools in New York that had wonderful success. 
And if you look at individual schools within larger districts 
that have had great success, there are some common 
characteristics. They have a very well managed instructional 
system. They have high academic standards. They have curriculum 
and instructional models that are aligned with those standards. 
What is done at every grade level is aligned with what's done 
at the next grade level. They provide intensive professional 
development on the curriculum instructional models. To close 
the gap, they increase the amount of instructional time on 
task, after school, extended day, summer school for children 
who are academically struggling as opposed to dummying down the 
curriculum in every grade level. They do things like class size 
reduction when they have the resources. But those commonalities 
exist in all school districts that have shown significant 
success.
    So the problem is only until recently have districts begun 
to really focus on where they need to focus to improve 
instruction and that's the classroom.
    For years, we did everything but managed instruction in the 
classroom. So a managed instructional system is I think 
absolutely critical to advancing academic performance.
    Now the greatest challenge we face is parental involvement, 
because when you look at the gap--you may look at high 
performing, high poverty schools, but a lot of times when you 
look at the level of parental involvement in those high poverty 
schools, particularly these open enrollment magnet schools that 
seem to do very well, yet, they don't set minimum academic 
requirements for enrollment, you see parents immersed in their 
children's education.
    So the greatest challenge that we face, and you're seeing 
it more and more, is the statistics that you see about children 
starting school in kindergarten, children in first grade, 
second grade, engaging in the type of bad behavior that you 
would normally expect--well, hopeful not normally expect, but 
you would not be surprised that many of the older children 
engaging in. There clearly is a parenting problem that needs to 
be addressed.
    So the biggest challenge we face as a school district is 
coming up with the support programs to get parents more engaged 
and more involved and more supportive in their children's 
education.
    Chairman Boehner. Dr. Newsome.
    Dr. Newsome. I think the biggest change is the focus on 
strong curriculum, the alignment of that curriculum with the 
expected outcomes and assessments and the accountability that 
goes along with that.
    I can't get past the comment that was just made, the 
concern about parent involvement. That is essential to the 
success of our schools. But because that's already been said, I 
will speak to another challenge and that's teacher quality. 
Once the children leave the home, come into our schools, we 
have a critical shortage across this nation with qualified 
applicants. And with the upcoming retirement of many of the 
baby boomers, we are even more concerned about the shortage.
    The No Child Left Behind legislation has now established, 
certainly in many states, an even higher threshold for 
qualifications. To me, it's intriguing that we are now asking 
teachers to have this level of qualifications in terms of their 
licensure, but we aren't asking the college professors and 
those people who train the teachers to have that same level of 
accountability in terms of providing quality instruction for 
our students, and to make sure that we have quality training 
for these teachers.
    Chairman Boehner. Dr. Smith.
    Dr. Smith. I'd just add, again, the key issue is clarity of 
the work, what do we expect our teachers to do. And for--we 
historically just have not done that well in our classrooms. We 
have viewed teaching as an art form where great people are 
allowed to work with kids and do marvelous things and on 
occasion it worked. But the clarity of what is expected, what 
does a third grader need to know to be a proficient reader, to 
understand and be competent in mathematics, to excel at an 
expectable level in high school classrooms?
    What is the standard and how do we decipher that? And the 
challenge to do that is incredible, that historically what we 
give teachers, 22 year old teachers when they begin the job, a 
mound of documents from state departments that confuse the best 
of us and descriptions that are too brief to re-explain to the 
teachers the nature of the work. And it's that definition of 
the clarity of the work--and what the Nation needs to worry 
about is that as we work, as systems work to clarify what 
teachers do every day is that clarification at that level we 
expect as a nation.
    Are we asking, in fact, enough? And my fear is that perhaps 
even the standards we have today are still too low, that we 
have to expect more of our kids even though we are having 
difficulties reaching these.
    The critical point--biggest challenge I see, and I try to 
focus on the things that I think I have at least some vague 
degree of control over. I'm not going to make a big difference 
in the nature of the homes. I'm not going to make a big 
difference in the workforces coming to me. The issues that I'm 
really concerned about is our ability to access tools that are 
going to be productive for teachers.
    There are too many be it textbooks or other strategies that 
are promoted that have absolutely no basis and fact in terms of 
helping children to excel, and weeding them out, sorting that 
our as superintendent of schools, is extraordinarily difficult. 
The inability for superintendents to tell their community the 
best way to teach mathematics and not have good research behind 
it is to me shameful, that we need to move to the point where 
we can explain that and have good strong research behind it.
    Chairman Boehner. I thank all of you. Dr. Casserly, go 
right ahead. Sorry.
    Dr. Casserly. I'd just like to reiterate what the 
superintendents have indicated. As far as we're concerned at 
the Council of the Great City Schools, they are right on target 
and one of the reasons they're getting the kinds of gains that 
they are getting.
    This issue about clarity of purpose and alignment of the 
work and accountability for the work and managing the work 
rather than it being quite so haphazard and fractured is really 
more important than people have understood over the last few 
years.
    Chairman Boehner. I found that out when I worked in an 
urban school district near me that doesn't have a uniform 
curriculum in their early and middle schools. That's just 
beyond my imagination. You've got a high mobility rate amongst 
the students and, yet, they don't have a uniform curriculum 
from one building to the next at the same grade level. Now this 
is about educating our kids. I can't understand what people are 
thinking.
    Dr. Casserly. Well, we did a study a couple of years ago 
that Mr. Vallas made reference to, a study called ``Foundations 
for Success,'' where we took a look at throughout common 
factors amongst the faster improving urban school districts and 
then tried to contrast it against the practices of the slower 
moving districts.
    And one of the things that was really common in addition to 
the factors that they have already articulated is what you have 
articulated, and that is they had a more common, cohesive, 
coherent and sometimes prescriptive reading and math program 
that didn't send every school off in a different direction. As 
we started to take a look at school districts like Washington, 
D.C. and St. Louis, both of whom have had our organization into 
study their instructional program to make recommendations for 
how it is they could improve, what we found in both of those 
cases and in other cases was a situation as you have indicated 
where every school was pretty much doing whatever they wanted 
to do, and the system was hoping for the best. And it was clear 
to us that the system itself couldn't hit its targets with 
everybody aiming in a different direction.
    Mr. Wu. Would the Chairman yield just for a moment?
    Chairman Boehner. I'd be happy to.
    Mr. Wu. Mr. Chairman, I share your concern about maybe 
different classrooms doing different things, but I've heard a 
phrase a long time ago that in France, the Minister of 
Education on every given day knows from Paris what page of the 
textbook every child in France is on. Surely the Chairman is 
not suggesting that level of standardization for American 
schools.
    Chairman Boehner. No, but I do think that having clarity--
we've got state standards. So we know on a grade level what 
states are expecting to learn. Most districts have designed 
curriculums, most, that fit the standards. How it is taught, 
frankly, ought to be left to the ingenuity and the creativity 
of the teachers. How it's taught, how that information is 
passed on. I don't think we need to know what page every 
student is on, but when it's not clear, from a third grade 
level in one building to a third grade level in another 
building what's expected or what the--no semblance of 
curriculum between the two schools, and given the mobility rate 
amongst high poverty students, they don't have a chance.
    Mr. Vallas. You know, I was going to say in large urban 
districts where you have 35 percent mobility rates or in some 
schools where you have a 50 percent mobility rate, the lack of 
a standardized curriculum is an unmitigated disaster.
    But, you know, there's not one single curriculum--make sure 
that the schools are all using a quality curriculum, or not one 
curriculum but a series of curriculum instructional models 
including your interventional curriculums, and make sure that 
those curriculum instructional models are aligned to the 
standards.
    Again, there are a number of reading curriculums that are 
very effective. There are number of math curriculums that are 
very effective, yet, different schools using those different 
curriculum models are having great success. Where they're 
having great success it's not because of the specific model as 
much as it's because the model is aligned with the standards 
and the teachers are taught and trained on their curriculum 
instructional model.
    We provided this year 100 hours of professional development 
on our curriculum instructional model. It did two things. First 
of all, it got everybody on the same page so to speak, and it 
improved the level of instruction, not only because it improved 
the quality of instruction on the part of the teachers. Because 
even if you had a teacher teaching out of their area of 
certification, if they have talent and they're smart and 
they're aggressive and they work hard, and you provide them 
with the superior curriculum instructional model and you 
provide them with 100 hours of intensive professional 
development on that model, you can take an ordinary teacher and 
turn them into a superior teacher.
    We address this issue of the teacher deficiencies or the 
fact that we have so many teachers that are not certified. 
Well, equip that teacher for the classroom. When we send our 
troops into Afghanistan we equip them with high-tech machinery, 
high-tech training, state-of-the-art weaponry. Up until 10, 15 
years ago, when we would send a new teacher into the 
classroom--I remember when I taught my first time, I got a 
science textbook. I think the last science event was Sputnik 
and I was not that old when I was teaching. It was not that 
long ago, it was the 1970's. No curriculum instructional 
models, no clear defined standards.
    So I think there's no substitute for the managed 
instructional system. Our business is to teach in the 
classroom, to instruct, and if you don't manage your 
instruction in that classroom, you're not going to be 
successful.
    Chairman Boehner. Mr. Miller.
    Mr. Miller. This is a battle this morning, but it started 
out as the question of whether you think teachers can be 
creative when teaching in the classroom. It would seem to me if 
children can learn to read at grade level and be proficient in 
second, third, and fourth grade, they will have additional time 
available to them for a lot of other activities that aren't 
taken up in remedial activities or catch-up activities or all 
the rest of that.
    I'd like to just address a question here, and I think, Dr. 
Raymond, I'd like you to cover this, too. You talked about 
gains from accountability, and then you suggested that the way 
you could enhance this, the gains, you said the precise 
incentives to schools. I'm not quite sure what you mean by 
that, but let me ask the broader question, but maybe that's the 
place where you could enter the discussion here.
    What is it we can do to enhance the chances that we can 
sustain these gains? Now, ideally I assume that if we did a 
good job in second grade, we're going to give the third grade 
teacher in Chicago or Philadelphia or Charlotte--we're going to 
give them a better chance of having success with that third 
grader, and that third grader is going to have a better chance 
of doing well as a fourth grade on a fourth grade exam. I don't 
know if it quite works at that continuum.
    So what is it we can do to enhance this 12-year quest for 
increased proficiency for these children? And then, sir, what 
are the impediments that come to mind to getting that kind of 
sustained continuous improvement. And Dr. Raymond, if you want 
to comment or start.
    Dr. Raymond. I'll take the first crack at that and then 
pass it along to others to fill in with their experience.
    My sense is that the incentives need to actually be evolved 
all the way to the school levels so that we actually tie 
rewards and sanctions to performance at the individual school 
level.
    Mr. Miller. An example of that would be what, if others can 
provide.
    Dr. Smith. If I could, you know, in my experience in 
Charlotte-Mecklenburg, this predates No Child Left Behind 
legislation. We did have a statewide performance pay program 
that would reward full schools if they met the state growth 
requirements in achievement. And I found that to be extremely 
successful. And it wasn't simply an issue of monetary reward, 
it was more an issue of recognition for accomplishment, that 
the work of teachers is being noted within a building. But I 
did find that the monetary reward was, pay for performance, was 
in my view at this point is a critical component if we're to 
achieve the mandate of No Child Left Behind, that it will be 
done with performance pay as a part of the package.
    Mr. Vallas. I was going to say if you want to sustain 
instruction, and the research will show you, not only in the 
Council on Great City Schools but research that has been done 
by others elsewhere is you have to come up with a curriculum 
instructional plan and you have stay with it. You have to stay 
with it not for 1 year but for multiple years. That's No. 1.
    No. 2, all of your professional development has got to 
revolve around training the teachers to the curriculum 
instructional models that they are using in the classroom. 
We're not talking about--everyday math is not rote 
instructional math. Everyday math is one of the most creative, 
most innovative math models that are used. Some people think 
it's too difficult for the kids and too difficult for the 
teachers, but it simply goes beyond math basics. But you've got 
to have your curriculum and professional development constantly 
train your new teachers and your existing teachers to the 
curriculum instructional models that they use in the classroom.
    And the third thing is you close the gap by increasing the 
amount of instructional time on task. If you have a quality 
curriculum instructional plan, if everybody is on the same 
wavelength, if the data is driving instruction, if you're 
making adjustments in your instruction--every 6 weeks in 
Philadelphia we make adjustments in instruction because we're 
evaluating how the children are performing every 6 weeks. Are 
they hitting the benchmarks? Who's falling behind? Who needs 
additional help? Who's moving ahead? Who needs additional 
enrichment?
    But if you have the children in a quality instructional 
program, if they are being provided classroom instruction, if 
you increase the amount of instructional time on task for those 
children who are behind or those children who are caught in 
that so called academic abyss, so to speak, you can in fact 
close the gap. Those type of things sustained over an extended 
period of time will result in a consistent improvement in 
academic performance.
    Dr. Newsome. I'd just like to add one thing to that, and 
that is the leadership component. We have to make sure that we 
have a consistent sustainability effort and leadership 
training, and that leadership training should start in the 
classroom and be consistent throughout the school district.
    Another component of that leadership is the governance or 
the governance bodies. We have--they are frequently elected 
boards, school boards who change, and with the change of 
elected boards we also have the change in focus sometimes. So 
our national organizations and our state organizations that 
work with the governance issues need to be part of this process 
as we look at making sure that we are sustaining the success 
that we experience on the classroom level.
    Mrs. Bigger. [presiding] The gentleman yields back. I will 
recognize myself for 5 minutes, since I'm next in line.
    I would really like to say how happy I am to see Mr. Vallas 
here. We really miss you in Illinois in the Chicago schools. 
You were always a role model I think when we were doing No 
Child Left Behind, and I know Chairman Boehner and Mr. Miller 
got really tired of hearing me say, ``Well, this is what Paul 
Vallas did in the Chicago schools, and that was very 
successful.'' But you did a great job, and we miss you. And I 
know that Philadelphia is very lucky to have you. And with 
that, I have a couple of questions.
    First of all, one of the things that I know that you did in 
the Chicago schools, among many of the innovative ideas, but 
one when there was a school that was not performing, you didn't 
really take the students out of the school but you took the 
management, the administration and the teachers. Are you still 
involved in that, and is it working if you could--
    Mr. Vallas. Yes. I like to think we've refined the art of 
reconstitution. And there's different types of reconstitution, 
but in Philadelphia some schools have been placed under private 
management, as you well know the celebrated private management 
cases. A number of schools have been converted to charters, and 
a number of schools have had simple upward leadership changes. 
So we're still doing that.
    Obviously, the level of intervention is really tied to the 
degree of underperformance in the schools. Because, you know, 
one of the things that we do is we try to go beyond the simple 
test score to evaluate and assess schools. We try to use a 
value added assessment approach to evaluating how schools are 
performing so that say if a school is not in AYP but that 
school is showing growth and improvement, the prescription for 
intervention may not be as radical as the school that simply is 
dead in the water. But we're still reconstituting schools, 
changing management, changing leadership in some cases, going 
much deeper and changing personnel in the schools, in some 
cases phasing out existing schools, and depopulating those 
schools as a way of gradual reconstitution. So yes, we're still 
doing it in a much more refined manner, though.
    Mrs. Biggert. You talk about the partnerships with the 
private and other public institutions that you established. Can 
you talk a little bit more about how the high school juniors 
and seniors are operating under that, and are they able to--I 
think you have them enrolling in college preparatory programs. 
And has this partnership allowed more of the disadvantaged 
students have access to additional options after graduation?
    Mr. Vallas. It has. In a single year, we actually increased 
the number of students in AP honors advanced placement and what 
we call our college programs from less than 1,000 to over 
4,000. The old adage being ``if you build it, they will come.''
    We were assisted--we're very fortunate in Philadelphia that 
there is in the Philadelphia Metropolitan area there are over 
80 colleges and universities most of whom are eager to partner 
with schools, Drexel, University of Penn, whatever. So what 
we've been doing is a number of the universities have actually 
taken over management responsibilities over the schools. In the 
case of Temple and University of Penn, they're actually 
managing the schools. They are their schools. They hire the 
principals, they do the staffing, they provide the professional 
development, they run the schools.
    In other cases, like Drexel, University of the Sciences, 
they're management partners. But all of those programs consist 
of what we call our college goods program allowing juniors and 
senior to enroll in universities for dual credit, those 
students who meet the minimum qualifications.
    So what we've been able to do is to enrich the curriculum 
instructional offerings by these types of relationships. So, 
for example, if you're going to the University of the Sciences, 
you can take courses at Drexel University. If you're going to 
Sayer, which is converting a middle school or phasing out 
practically all of our middle schools so that we would be a K-8 
9-12 system, but Sayer is partnering with University of the 
Sciences, and their juniors and seniors will be able to take 
university courses at University of the Sciences for dual 
credits.
    So these type of relationships have allowed us to 
dramatically enrich the curriculum--the course offerings in the 
high schools at really very modest expense.
    Mrs. Biggert. And then just one more question. You were 
very involved, I think, in bringing the parents into the 
schools and worked very hard starting with the parent councils 
and having the parents have to come and pick up the report card 
and things. And then I think that you did also establish 
mandatory summer school for those that were not being promoted.
    Mr. Vallas. Right.
    Mrs. Biggert. And now I think that in your district you 
have mandatory summer programs for students in math and 
reading.
    Mr. Vallas. And reading. Any child grades 1 through 8 who 
is not reading or computing at grade level is provided an 
additional 6 weeks of instruction about 4 hours a day, two 
meals a day, enrichment in the afternoon. So we get more people 
signing up than--this year we're actually turning kids away who 
don't have to be there but want to enroll.
    We do the same thing with extended day. There's mandatory 
extended day for about 26 weeks, and it goes October to April. 
It provides the kids with at least another hour of additional 
instructional support and a second hour of enrichment should 
they choose to participate. But we're doing something a little 
different this year in summer and extended day. We're actually 
not just doing extended day and summer school remedial. And 
incidentally, everything that's done in extended day and summer 
school is tied to the curriculum instructional models.
    So it's simply like an extended school year and extended 
school day for underachieving. But what we're doing for the 
children who do not have to go to summer school, we're offering 
after school extended day honors, advanced placement. We're 
offering summer school honors advanced placement accelerated so 
we can expand the diversity of our offerings. But it is 
mandated for children who are not academically at grade level.
    Mrs. Biggert. Thank you. My time has expired.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you very much, Madame Chairman. I'd like 
to thank the panel for outstanding testimony. In particular, 
I'd like to thank the superintendents who were here for the 
important work they're doing every day with these students.
    I'm very encouraged by what I read and hear, and it is to 
your credit and those who you work with, your teachers and 
staff and obviously parents and students deserve this credit.
    Mr. Vallas, I particularly want to say how pleased we are 
in the Delaware Valley with your work in Philadelphia. About a 
third of my constituents work in Philadelphia, many of them 
work for you, and the health--
    Mr. Vallas. We take care of them.
    Mr. Andrews. That's right. And the health of the 
Philadelphia school district is very important to all of us in 
the region, and you are a very healthy development--your 
arrival.
    I want to ask about AYP and evaluation of IDEA students. I 
want to say for the record, I believe and I think each of us up 
here believes that there should be no artificial limitations on 
the achievements of IDEA students. They should be able to go as 
high and as far as quickly as they possibly can. I think there 
have been such arbitrary limitations in the past, and we ought 
to abolish them.
    Having said that, I am very concerned about the Department 
of Education's interpretation of the AYP rules that seems to be 
holding fast to the notion that there can be no variation or no 
discretion with any real meaning in the evaluation of IDEA 
children as opposed to non-IDEA children.
    I'd like to ask the superintendents who were here this 
morning how you're approaching this problem. Are you giving 
IDEA children the same tests that you are giving the other 
children? If so, how's it going? If not, what are you doing? 
And do you think that we should consider changes in the way we 
evaluate the progress of IDEA children.
    I want to say again for the record, because this is such a 
volatile issue, to me changes in evaluation would not mean 
abandoning evaluation. It would not mean lowering standards. It 
would not mean in any way isolating or discrediting these 
children. But I've heard from so many of my educators that this 
is a problem, I wanted to hear from each of you.
    Dr. Smith. If I could, it's a critical issue for us and is 
one that will continue to push--beg for an answer as to how to 
proceed in this nation with IDEA students and one that we've 
been wrestling with in my district a great deal.
    I think that--this is my quick answer is that what is 
currently in law with No Child Left Behind the requirements for 
academic success of IDEA children should stay the way it is. 
There shouldn't be any modification of our current posture, 
that--and it is creating extraordinary pressure out there in 
school districts across the country as to how to make the kind 
of gains that are required under No Child Left Behind with 
children with special needs.
    I am of the--I am very confident that because of that 
pressure we're going to find that many of the things we've 
historically done to serve the needs of this population have 
perhaps even been misguided or misapplied, that in fact in many 
cases we've set up a class of young people that we do in fact 
expect less of, and as a result, performances are reflective.
    Mr. Andrews. Can you tell, though, Dr. Smith, are you 
administering the same tests to the IDEA children as the other 
children?
    Dr. Smith. Yes.
    Mr. Andrews. And what's the performance been?
    Dr. Smith. The gap in performance is the largest of any of 
our subgroups between children with special needs and other 
students.
    Mr. Andrews. I would say I would invite everyone to 
supplement the record with a written answer. I realize I asked 
a long question.
    Mr. Vallas, how about you in Philadelphia?
    Mr. Vallas. Yes, we test. We test. We're required to test. 
Obviously, we disaggregate that data.
    Let me point out that, again, our own experience as well as 
a lot of the research will show that when you have a quality 
managed instructional system with all the things that I took 
way too long explaining in my earlier answers, you will see 
improvement and sometimes significant improvement in special 
education children.
    I agree with the doctor, I think we need to be very 
cautious before we go in and do some significant altering of 
that mandate.
    As a student who was formerly a special education student, 
and not because I wasn't smart but I had a learning deficiency, 
but because my stuttering and stammering and my vision 
problems, which weren't identified until seventh grade, were 
interpreted as basically being characteristics of an 
underachiever, I will tell you there are far too many children 
being classified as special educational for no other reason 
than we just haven't taught them how to read, or they have 
perhaps neurological obstacles to learning that can be 
corrected through programs like Fast Forward.
    A number of years ago in Chicago we decided 1 year to not 
only test but to screen every eighth grader who had failed and 
were facing retention, and 30 percent of the children failed 
their screening, and two-thirds of those children failed their 
eye exams. So 4 years later, we have purchased I think close to 
30,000 pairs of eyeglasses. So maybe that was the reason their 
reading scores went up 6 years. It had nothing to do with the 
curriculum, it was the fact that we had a large number of kids 
who suddenly could see the blackboard.
    I agree with my fellow superintendent here. I think we have 
to be very cautious before we go in and we lower that.
    Mr. Andrews. I'd quickly ask Dr. Newsome to answer, then my 
time is up.
    Dr. Newsome. We, too, administer the same standards for our 
students with special needs, but I would like to say that I 
believe in this area. We entering and exploring some 
unchartered territory. We have never before as a nation placed 
this level of expectation on all groups, and we need to 
understand some of the challenges.
    And if I may share one example on our state exam. I went 
into a hearing impaired classroom this year, and the students 
were preparing for exams. And the teacher had shared that the 
previous year's students were asked to respond to eight 
questions the asked them to identify the words that sound the 
same, an impossible task for these students.
    So as we venture into this unchartered territory and we 
have set these high stake mandates, we need to be aware of the 
challenges that come because these students are placed in these 
programs because of special needs.
    But again, I do believe, as we have heard Mr. Vallas say, 
too many students may be inappropriately placed. There's 
certainly a disproportionate number of students who live in 
poverty and minority groups involved in special education.
    Mr. Andrews. Mr. Chairman, thank you. I would just like to 
say I appreciate what you've done in this area.
    Chairman Boehner. Dr. Casserly wants to remark.
    Dr. Casserly. I agree with all of my colleagues who've 
spoken on this. I think we're concerned in urban education 
about the evaluation procedures for students with disabilities 
as well and are trying as best we can to use the same 
evaluation tools with these students as we do for all other 
students.
    The Committee might want to attend to another issue that's 
related to this, though, and that's kind of an emerging 
practice of using different end sizes for this particular 
subgroup and for all other subgroups, that is, the larger the 
size the less likely it is students would be evaluated or that 
one has to be accountable for that. But there appears to be now 
more and more states that are using one end size for disabled 
kids and another end size for other students.
    Mr. Andrews. Mr. Chairman, if I may, I think to build on 
the work that you and Mr. Miller and others have done, the 
consensus that I'm increasingly hearing is that we should 
maintain this mandate so that we can elevate the level of 
educational quality for these children and lead to the kind of 
screening that several of the witnesses talked about so we're 
not misidentifying children.
    We also should look at rigorous but meaningful forms of 
evaluation and not a one size fits all as Dr. Newsome just 
talked about. I think it's very important that we give children 
a fair test. Thank you very much.
    Chairman Boehner. If the gentleman would yield--
    Mr. Andrews. I would.
    Chairman Boehner. You know, we're in the midst of a huge 
paradigm shift when it comes to the expectations for children 
with special needs, and as we move to expect results for 
special needs children, how we assess them and assess their 
progress is going to be an issue that we're going to continue 
to discuss. I do think the department in their revised 
regulations have, in fact, given districts and states more 
flexibility over how these special needs children are assessed, 
and I think this discussion will go on for some time.
    Mr. Andrews. If just briefly again if I may, I stand with 
the Chairman and his belief that this paradigm shift is 
appropriate and overdue and one that I will defend.
    I also appreciate his willingness to talk about the means 
by which we achieve the paradigm shift. Thank you.
    Chairman Boehner. The Chair recognizes the gentleman from 
Georgia, Mr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. I wanted to maybe 
direct this question at least initially to Dr. Newsome in 
regard to the achievable dream academy.
    Dr. Newsome, in your testimony, under the solutions you say 
that student effort and family involvement should be a better 
predictor of achievement than socioeconomic status.
    I might tend to agree with you, but it's certainly true 
that children who are like the ones in the academy, 98 percent 
are free and reduced lunch, almost by definition they're from 
homes where in many instances there's maybe one parent who's 
working two jobs or possibly they're of limited English 
proficiency and there is a high transient rate. I mean the two 
are so closely connected, almost joined at the hip that it's I 
think very difficult to achieve that and to say that despite 
this lack of socioeconomic wherewithal that you can still 
achieve what you've done at the Achievable Dream Academy. And I 
mean, it's--I commend you. It's fantastic. It sounds wonderful.
    My question is, though, in taking that the group of 
students that you recruit to come and start in the ninth 
grade--I'm assuming this is a high school.
    Dr. Newsome. No.
    Mr. Gingrey. K-12?
    Dr. Newsome. This is a K through 8 program.
    Mr. Gingrey. The ones that you recruit to do that, to go 
eight and a half hours a day, 6 days a week, and of course the 
carrot is the college scholarship if they complete the program, 
and I think that's fantastic. But what percentage of students 
that enter the program are actually--stay in the program. 
Because if they all--if 98 percent of them are from those type 
backgrounds that I would envision, that I do envision of 
youngsters on free and reduced lunch, they're economically 
disadvantaged. I just wonder if your success rate is pure and 
is true as it is if you'd give us the numbers of students that 
may drop out of the program.
    Dr. Newsome. First of all, in my written testimony I use a 
term called social economic determinism, and this was a term 
introduced to us through the Phi Delta Kappa international 
organization in their audit. And their research found that 70 
percent of a student's performance on standardized tests can be 
attributed to what happens before they get to school and for 
the most part based on family income.
    And the testimony further goes on to say that through a 
strong curriculum, strong alignment, strong delivery of 
instruction, that we can reduce that percentage of influence. 
And so in the Achievable Dream Academy, we do have students who 
do spend more time in school than they do at home compared to 
their counterparts.
    At this point I did not bring the statistics with me, but I 
can certainly provide them for you. I do know that one of our 
seniors that I spoke with this past week has shared with me 
that she's one of six siblings and all have gone or are in the 
process of going to this school, and we do have a waiting list. 
Again, at this point, I do not have the rate of turnover and 
will be happy to provide that for you.
    Mr. Gingrey. Thank you.
    Chairman Boehner. I think Dr. Raymond wants to comment, as 
well.
    Dr. Raymond. I would just like to amplify the comment that 
Dr. Newsome made with some research that does not appear in my 
testimony but comes to my head because we're talking about it.
    We've actually looked at what the relative contributions to 
student learning are from teachers and tried to suggest that 
teachers contribute in different ways to, in different 
magnitudes to student learning. And what we've been able to 
determine is that if you had teachers in all classrooms with 
low socioeconomic students who were capable of producing at the 
national distribution of teachers at the 75th percentile, in 
other words that they would produce student gains at the 75th 
percentile of all teachers who produce gains, you could 
actually in 3 years' time wipe out any disadvantage of 
socioeconomic background.
    And that, to us, suggests that the critical factor that we 
have to have in protracted sustained school reform efforts is 
teachers who do produce outcomes.
    Mr. Gingrey. Mr. Chairman, I know my time is up, but just 
for one last comment going back to what Dr. Newsome said. He 
was quoting the author Jim Collins and I really, really agree 
with this. If we expect and indeed demand that schools be 
great, then we need to look at churches, communities, 
government, business, families, and they need to be great as 
well. I think that was a great point, and I really appreciate 
you bringing that to us.
    Chairman Boehner. The Chair recognizes the gentleman from 
New York, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you to all 
of the panelists for your testimony this morning.
    I want to pick up on something that Dr. Casserly said and 
ask the three superintendents. Dr. Casserly said that we have 
made improvements, that we have a long way to go, but that 
improvement on a large scale is possible.
    And my question to the three superintendents is do you have 
what you need to make the next leap? Do you have the 
instructional resources? Are you able to offer class size 
that's appropriate? Do you have a sufficient number of well 
qualified teachers?
    I'm assuming you agree with the comment that Dr. Casserly 
made, so my question is can you get to the next level?
    Dr. Smith. I'd be happy to respond. Yes, we can get to the 
next level. I think there are issues that are going to over 
time prove challenging to us. One, again, I come back to the 
point I made before is the question of appropriate resource. 
How do we--when we get--when we continue to move numbers up, be 
it special needs children or other categories, accuracy and the 
kind of intervention that we bring to the classroom, how do we 
move to the next level and really perform at a high degree with 
all kids.
    The appropriate tool, the effective tool is a major 
challenge for us, and you'll see it across the country. You'll 
see school districts or schools that choose an ineffective 
reading strategy and they flounder and fail, and you'll see 
others that choose successfully. It's not just a matter of one 
vendor or another, some things in fact work and some things 
just don't. The efficacy of strategy is huge.
    The second piece is the quality of the workforce. As we 
continue to expect more and really a different kind of teacher 
than we've had in the past, a teacher that is strategic in how 
they think, that can manage and manipulate data, that can think 
fluidly about how to transform their teaching strategies over 
the course of a week to make sure that children don't fall by 
the wayside, and conversely so that we continue to challenge 
those at the high end, calls for a different kind of a talent 
than maybe we have seen in the past.
    So the need to do some retooling of our Universities and 
our teacher preparation programs and to continue to try to 
drive for a higher skill level with our workforce is going to 
continue to be a major challenge and simply to deal with the 
turnover that we're having, the retirements, those that are 
leaving the profession, is huge and in my view one of the other 
major challenges we have.
    Mr. Vallas. Well, I certainly agree with everything that's 
been said. Let me add a couple of things, though.
    I think we really have to begin focusing--put a focus on 
making a big commitment to early childhood education. When you 
look at school districts, at least from my experience now in 
two districts, when you look at school districts that are 
improving, where the instruction clearly is improving, you see 
a couple of common characteristics. One is both reading and 
math are improving, but math seems to be improving much faster 
because there are fewer language barriers so to speak and 
sometimes cultural barriers to the learning and mastery of 
math.
    But you see a second characteristic, and that is at every 
grade level the children seem to be doing better. At every 
grade level the gap seems to be narrowing. Certainly my 
experience in Chicago, where the eighth grade test scores I 
think are now the highest than they've ever been, yet, 
significantly higher than the third grade test scores. At every 
grade level the test scores seem to be improving.
    But the problem is the gap is so wide by the time the kids 
hit third grade that you never quite get caught up driving home 
the point that you have got to--we've got to begin to invest 
considerably more resources in early childhood education. We've 
got to start reaching the children and the parents of the 
children before the children are born.
    We adopted a--we established a program called ``Cradle to 
the Classroom'' in the city of Chicago. We've extended to here. 
It was actually founded by a former welfare mother who is now 
affiliated with Georgetown University, Virginia York. In fact, 
Congressman Davis knows her well, from his district.
    What they did was they set up a program where they identify 
every pregnant teen in the high schools, provide the pregnant 
teen with a parent trainer who would work with the pregnant 
teen and make sure the baby is born healthy, put the baby in 
daycare and preschool. Keep the pregnant teen in high school.
    I think over a period of 4 years they had graduation rates 
of like 90 percent. At least through my first 6 years there, I 
think only two or three of the pregnant teens who had gone 
through the programs, and there were I think close to 3,000 had 
gotten pregnant a second time, one of the pregnant teens, it's 
my understanding, was admitted to Harvard last year.
    The bottom line is--and the performance of the children in 
those programs who had been in the Cradle to the Classroom 
program, they are now entering kindergarten, first grade, 
second grade, it's my understanding has been much greater, a 
significant difference, the gap significantly narrower.
    So, you know, I think we've got to begin to focus on early 
childhood education. As I pointed out earlier, when you look at 
this phenomena of disruptive student behavior that is beginning 
to--the problem of disruptive behavior among young children, 
first graders, second graders, third graders, engaged in the 
type of violent acts or the type of disruptive behavior that 
wouldn't have been imagined five, six, seven, 10 years ago. 
That's not a problem that the school created. That's not a 
problem that was result of deficiencies at the school. The 
children are starting school not ready for school. So clearly I 
think we have got to focus our attention, because I think the 
things that we've talked about, a managed instructional system, 
with all that that entails will drive us to the next level, but 
we've got to close that gap before the children ever start 
school because in some cases the gap is too wide to be closed.
    Dr. Newsome. Thank you for the question, and I will be very 
brief. Teacher quality, early intervention, resources have all 
been addressed. One of the challenges in urban school districts 
is as we reduce class size and as we provide more opportunity 
for early intervention with all day kindergarten and preschool, 
we don't have space. Many of these grants provide the resources 
and pay for funding for teachers and resources, but we cannot 
use funding to provide space for them.
    A significant number of our students are attending school 
in portable trailers because there is no space in the main 
building. And so I think we may need to look at the flexibility 
in the expenditures for some of these grants.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chairman Boehner. I think Dr. Casserly wants to remark on 
it a little.
    Dr. Casserly. Just let me add two additional things that we 
are still struggling with and need additional help with, and I 
agree with all the other panelists here, is that we continue to 
need help with the reform of high schools in the cities. We're 
getting terrific gains at the elementary grades and kind of 
modest gains, spotty gains at the middle grades, but our high 
schools still need considerable reform.
    In addition to that, there still needs to be considerable 
work done devoted to the instruction of English language 
learners. We've got a long way to go on that front, and we're 
not making the kind of progress with that population of 
students that we really need to.
    Chairman Boehner. The Chair recognizes the gentleman from 
Nebraska, Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman, and thank you for 
being here. I'm sorry I missed your earlier testimony. We had 
some other hearings scheduled at the same time.
    What I'd like to ask about is something I guess that had to 
do with myself. I used to be in a lot of city schools, inner 
city schools and living rooms, 30 or 40 a year, in large 
cities, and I noticed that parental involvement was a big 
factor with a lot of transcripts. And it wasn't a one-to-one 
correlation but it was a pretty heavy correlation. And I know a 
lot of the things that you're suggesting here, the summer 
school, longer school days, better teachers, but those all cost 
money. Then you're going to have some people say yeah, we'd 
like to do that but we don't have the money to do it.
    Do you have any strategies for involving parents at a 
higher level without necessarily doing some of these things 
which are very expensive? I know that's a difficult question, 
but I thought I'd just throw that out to you.
    Mr. Vallas. Let me start out by saying that there are a 
number of things you can do, and what we've tried to do is tap 
into Medicaid money, TANF money, transitional assistance to 
secure additional funds to finance these initiatives. I'm 
speaking as a superintendent of a school district where about 
85 percent of the children live in homes that are at or below 
the poverty rate. So clearly a very significant amount of 
children are coming from challenging environments.
    Our approach has been to do the following, to make sure 
that all of our schools, first of all, have locally elected 
parent councils so that you're developing a cadre of parent 
leaders in that school.
    Our second approach has been to--I inherited a school 
district that had to lay off its truant officers, that had 
gotten rid of a lot of the critical support staff. When we go 
out and we hire our truant officers or when we hire our 
community patrols, when we recruit our in-school patrols, 
they're our parents. So again, building a cadre of parents. 
Every school has a parent help desk. Every school has a parent 
patrol. Every school, hopefully by September of next year, 
we'll have a parent council.
    Come September, there will be close to 2,000 parents who 
are working in the schools in a variety of support capacities. 
Now let me point out that many of the parents who are working 
in the schools are what we call transitional assistance 
parents. These are parents who are meeting their TANF 
obligations, their welfare to work obligations by participating 
in the schools. So the objective here is to build a cadre of 
parents who can help the school be more accessible to the 
parents and the community but can also help the school reach 
out to that disengaged, uncommitted parent.
    I mentioned all of our truant officers are parents. Our 
home instructional program for preschool youths, which is our 
home preschooling for children who are not in preschool, is run 
and administered by parents, parents visiting the home of other 
parents. So the objective here is to build a cadre of parents 
in each of the schools who can be exemplary role models.
    A lot of those programs are funded through basically 
nontraditional sources like Medicaid, the transitional 
assistance, the TANIF money, many of the social service money.
    Another thing that we're doing to get parents more 
involved--and let me point out that all the parents who go 
through these programs are also provided continuing education. 
So we're upgrading their skills as they move along, upgrading 
their capabilities.
    But we're also partnering with community based 
organizations, particularly faith-based institutions in very 
aggressive ways, so that not only do you have a cadre of 
parents working in those schools to reach out to the less 
engaged and the disengaged parents and sometimes to provide a 
buffer between the schools and those parents who the child can 
do no wrong, and if my child is disciplined or suspended it's 
the schools fault, whatever, because some schools need the 
parents to serve as a buffer.
    But working through the faith-based institutions in a very 
aggressive way, the faith-based institutions have become 
vehicles for mobilizing even greater parental involvement and 
greater community involvement in support of the schools.
    So those are two very cost-effective ways of engaging our 
parents.
    One final thing that I want to mention is we are--every 
aspect of our curriculum instructional programs and our 
disciplinary program has a parent training component, so the 
curriculum instructional models all have parent components, 
parent homework guides. The report card has a parent checklist. 
Some parents--some people have referred to it as a parent 
report card. I refer to it as a parent checklist.
    When your children are disciplined, parental counseling is 
required, so the parents have to come particularly in the 
primary grades. And if a child is persistently disruptive, 
additional parental involvement is mandated, you see.
    So again, those things are not that expensive to do. So 
those are just some examples of our attempts to 
institutionalize parental involvement.
    Dr. Smith. If I could just add one comment. One of the 
things that--the basic premise we operate with is that parents 
of all backgrounds, regardless of affluence, race or other 
factors, tend to be involved when they see their children 
coming to school and being successful, and it's the parent that 
tends to see the child not engaged, not successful in school 
that kind of separates themselves from the school environment.
    We also--in my work in Charlotte, North Carolina as 
superintendent, I spent a lot of time working with pre-
kindergarten and studying how we bring families into the K-12 
program, families that perhaps have had as children themselves 
had bad experiences with schooling.
    We found a couple of factors. One, with pre-kindergarten--
and I'd say the same holds true with Head Start--is that, one, 
the nature of the early intervention programs, be it Head Start 
or be it pre-kindergarten programs operated within a school 
district is that they absolutely have to have as their core a 
pre-literacy focus. They have to be preparing students to enter 
kindergarten as confident readers. And the gap really needs to 
be worked to be eliminated by the time they enter kindergarten.
    And with that, with families seeing their 4-year-olds and 
3-year-olds being successful as early readers, there needs to 
be some very directed conversation with parents about 
parenting, and we were able to do this successfully with parent 
contracts, with mandated regular parent meetings as a group, 
not in a punitive way but in a positive way, coming together to 
celebrate the work of their children, to share in the work of 
their children, to talk about ways that they can read with 
their children at home, and providing supplies and materials.
    But important we found was to start that process as a 
successful process as a family as children come into the K-12 
or first grade through 12th grade operation and plant that seed 
that each parent's children are successful in our schools. They 
tend to buy in and learn to be a part of it more down the road.
    Mr. Osborne. Thank you, Mr. Chairman. I believe my time has 
expired. Thank you.
    Mr. Castle. [presiding] Thank you, Mr. Osborne. Mr. Tierney 
is recognized for as long as he wants, as long as it does not 
exceed 5 minutes.
    Mr. Tierney. Thank you, my friend. Thank you all for your 
testimony here this morning. It has been very helpful. Let me 
see if I can go through a couple of questions in my allotted 
time.
    First of all, the transfer aspects of No Child Left Behind 
where--would you comment on that for me in terms of whether you 
think that's a good policy or bad policy as it's practically 
able to be applied with your systems.
    Dr. Smith. I can speak to that. I think the transfer policy 
is a good policy, and we're managing it. I think that we have 
an obligation to educate children, and when we're having 
difficulty with that task, we have an obligation to give 
parents some choices. So again, we have found ways to make it 
work and support it.
    Mr. Tierney. Maybe I should have some people in my district 
contact you for those ways. We're running up against a problem 
of finding out too late, you know, whether or not people are 
going to have to have that money--setting aside money for 
periods of time then finding out only too late the parents 
don't opt for the transfer and then not be able to allocate for 
those funds, and also difficulty with finding a place for them 
to transfer to. Our schools are full. But you're apparently not 
running into any of that or you've found some solution for it.
    Dr. Smith. I'd just follow up. I'm not saying we don't have 
technical challenges with this, but it's challenges that we're 
willing to work through.
    Certainly the date of notification when a school needs to 
provide this opportunity is a problem. We're working through 
that right now this year as we speak. And so those issues, 
finding a seat available and what that does for capacity of 
other schools is a challenge for us. But again, in terms of the 
concept and learning to adapt to the requirements, I think, 
again, we're finding ways to do that and have not been stopped 
at this point in doing so.
    Certainly with some districts, the challenge becomes almost 
absurd, distance, capacity issues, availability of adequately 
performing schools becomes challenging. And again, I think that 
certainly needs to be noted, and we just need to find a 
rational way to work through some of those details in the law.
    Mr. Tierney. Thank you. Doctor, you wanted to say--
    Dr. Newsome. I would agree that the notification date is a 
tremendous challenge for us. The national rate of public school 
choice transfers are approximately 2 percent. And if the rate 
remains at 2 percent, I think we'd be able to adequately 
accommodate this. But as more parents become aware and more 
schools are identified as eligible or required to provide 
choice, then I see that this potentially will be a greater 
challenge for us.
    Mr. Tierney. Thank you.
    Mr. Vallas. We haven't had any serious problems for us.
    Mr. Tierney. Thank you.
    Mr. Vallas. We haven't had any serious problems even with 
the timing of the letter being sent out. We've--again, larger 
districts have fewer problems because they tend to have more 
options where smaller districts are sometimes at a 
disadvantage.
    Transportation reimbursement is a headache and it does take 
away from other critical funds, but the bottom line is we 
haven't had any serious problems.
    To deal with the issues of choices, we're creating more 
choices. We have 51 charters in Philadelphia, incidentally, 
subject to the same No Child Left Behind standards that the 
public schools are subjected to. So everyone is on the same 
accountability mandate.
    What we're also doing is we're magnetizing neighborhood 
schools by putting magnet programs in neighborhood that then 
are open enrollment programs, like the international 
baccalaureate programs or advanced math, science and technology 
academy programs so on and so forth. So we haven't had problems 
expanding the number of options too.
    But one thing has happened. We mail out over 100,000 
letters a year, yet, maybe 3,000, 4,000 elect to even 
contemplate taking advantage. Once the schools have after 
school extended day programs, once the schools are seemingly 
moving in the right direction, even if those schools are not 
AYP, even if those schools are schools that are designated as 
schools in corrective action mandating, those letters you'll 
find very few parents electing to take advantage of those 
choice options.
    Parents are very patient as long as they feel the school's 
moving in the right direction.
    Mr. Tierney. I think--
    Dr. Casserly. We did a major study of the choice options in 
the major cities across the country earlier this school year, 
and we did find that this school year there were about three 
times as many parents who availed themselves of various public 
school choices this school year compared to last school year.
    But the overall demand has been indicated still remains 
relatively low. And because the demand is relatively low, we're 
not having as many problems as we may have in the future with 
capacity if that demand continues or would continue to arise.
    This issue about late data from the state is a serious one. 
Many of our school districts are simply not getting the data 
back from the states on which school have been identified for 
adequate yearly progress and, thereby, we can't notify the 
parents in a timely fashion to give them an adequate 
opportunity to make an intelligent decision about whether or 
not they want to transfer their kid.
    Mr. Tierney. Looks like I can sneak in one last question. 
It would be about the small schools concept with high schools. 
I know Mr. Vallas, you mentioned that you're going from K to 8 
and 9 to 12 again, as I think a number of schools are.
    What has been your experiences with making the--using the 
small schools program in high schools, and has that been a 
favorable experience, and should we keep moving in that 
direction?
    Mr. Vallas. Small schools are preferable to large schools, 
but if you don't have a managed instructional system, then, you 
know, a small school can be as big a failure as some of our 
failing large high schools.
    But generally when you downsize the size of the schools--
we're building a number of new high schools. None of them 
will--and the middle schools that we're converting to high 
schools, none will have more than 800 students.
    So we try to keep the schools at a manageable size so that 
they're small enough to be more intimate, greater familiarity, 
faculty can have a staff meeting in a classroom instead of the 
auditorium, things of this nature. Much more intimate. So you 
can recognize students when they're walking down the halls.
    But we also want to keep the school sizable enough so it 
can provide a diversity of offerings, the neighborhood- based 
magnet programs, offer the course offerings that are needed.
    But we found that when schools are smaller, they are much 
more manageable and it creates--again, it's another factor 
combined with other things can improve the level of--can make 
the environment more conducive to learning.
    I do have to make one comment, though, related to the No 
Child Left Behind mandate that students be allowed to select 
other schools, school options. One of the things we do not do 
in Philadelphia is I will not make a school overcrowded if--to 
meet the mandate. And I will not increase class size to meet 
the mandate.
    Two of our goals is to keep our schools at a manageable 
size in terms of the overall enrollment and to reduce class 
size. And a lot of times there's pressure to put 37 kids in a 
classroom because this is a AYP school and you need to find a 
place for the children. Well, you know, you put 37 kids in that 
classroom, and that's not going to be an AYP school for long.
    So we have clear guidelines. We are not going to undermine 
the quality of the schools that have achieved AYP because 
they've been reducing class size, because they're of a more 
manageable size in addition to all the instructional reforms 
that they've instituted in order to comply with the mandates.
    So within those parameters we're very comfortable with the 
mandate. Of course, that could change if next year 25 percent 
of the kids decide to participate. Then I may be singing a 
different tune.
    Mr. Castle. Thank you, Mr. Tierney. Mr. Ehlers is 
recognized for 5 minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. I have two questions 
to ask of each of you, and particularly the superintendents. 
The first one is, under No Child Left Behind in 2007, 2008 we 
begin testing for science, and the schools and the states are 
supposed to be preparing standards.
    So the first question is is your state and your school 
beginning that process, and are you encountering any problems 
with it?
    The second question is related to the Chairman's comment 
earlier about a paradigm shift that we're undergoing, and he 
referred to education of special students. But I think there's 
been a paradigm shift in the legislation period. And I'd be 
interested in how that has affected the Great City Schools. In 
other words, are you better off now than you were under the 
previous legislation or not?
    Do you see us solving the many problems that arise whenever 
you introduce new legislation? Or are you seeing problems that 
really need attention?
    So first question, science. Second, are you better off or 
worse off as a result of the paradigm shift.
    Dr. Smith. I'll talk about science. We are in Maryland and 
our district beginning the work on the science initiative. 
We're in the very early stages, however, and I really couldn't 
give you much detail as to how this is going to play out.
    I will share that as we've focused on the issues of reading 
and mathematics in grades K-8, time is becoming the key factor, 
and we're finding that we have a very, very busy school 
schedule when you run a traditional 6 hour 15 minute--six hour 
30 minute school day over 180 day school year, which is pretty 
much standard across the country. What we have done is we have 
shifted the resource of time to reading and math. So if you 
come to our district today, you will find 90 minutes of reading 
and 90 minutes of math being taught in our middle schools and 
in our elementary schools.
    I think some of the big challenges that we have not 
addressed yet is how do we find now more time for science as 
well, and what does that do for the rest of the curriculum.
    So again, there are some important decisions that certainly 
will surface in my view as we move into that new phase. What 
about the arts? What about issues of physical education and 
technical training and so forth that are critically important 
for our young people? And is there enough time to accomplish 
all these tasks and do them at the level of proficiency that we 
expect I think are some of the unanswered questions right now.
    Dr. Casserly. On the paradigm shift, let me give you a 
short answer. I think we're better off with a paradigm shift 
than we were before. I think there still is lots of technical 
problems that we need to resolve in ``No Child Left Behind,'' 
but in general the larger emphasis on student achievement, on 
closing the achievement gap, and being accountable for the 
results is a shift that has been important to us. And we can 
see the result of that shift not only in our increasing 
emphasis on student achievement and now some of the results we 
see emerging because of that, but in the attitude change in 
many urban school leaders across the country and their focus 
now on student performance. It's really something that we have 
not seen in quite the same way.
    This paradigm shift obviously is embodied in No Child Left 
Behind, but it is a shift attitudinally that has been going on 
for some time, but it's an important one. And I think we're 
better off because of it.
    Mr. Ehlers. Thank you.
    Mr. Vallas. We're excited about the science mandate. I 
think science has long been overlooked. And you look at the gap 
that exists, it's not an achievement--it's an achievement cap 
at all levels, high achievement, honors, advanced placement, 
science, mathematics.
    Also you'll find when school districts begin to focus 
seriously on math and science, sometimes those scores improve 
much faster than the reading scores because again, there are 
fewer barriers to mastering those areas.
    Next year, our school district--it's my second year in 
Philadelphia, and we've standardized the math and reading 
curriculum, the managed instructional system. Next year we're 
adding science and social studies. We will literally spend--we 
spend 120 minutes a day on reading and 90 minutes on math, not 
to count extended day. Next year we'll be spending 45 minutes a 
day on science. And again, it follows the curriculum 
instructional models that we're using in reading and math. And 
we supplement it with science clubs, programs like the--high 
achievement programs like the Odyssey programs, extended day 
science, summer science. Science is offered as a summer school 
enrichment course.
    So again, we're happy that science is being included, and 
we certainly welcome the mandate.
    In so far as the paradigm shift, I agree with Mike. The 
paradigm shift for us began in the mid 1990's because many 
things we were doing in Chicago that were very controversial at 
the time have now become embodied, incorporated into No Child 
Left Behind. So I think the paradigm shift began for us and for 
many large urban school districts, as Michael has pointed out, 
really in the 1990's, and I think we've--so we welcome this.
    And certainly I think No Child Left Behind, with its strong 
focus on accountability, has I think accelerated that shift 
more dramatically, but many of us were involved in this early 
on when some of the things like standardized curriculum were 
equated with lobotomizing teachers. So I think we've gone 
beyond--the paradigm shift really began for us much earlier.
    Chairman Boehner. The Chair recognizes the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. And I want to 
thank you for a very informative and insightful hearing. And I 
also want to thank all the witnesses for their comments.
    Paul, it's good to see you again, as always. I still say 
that Philadelphia's gain was Chicago's loss. And from 
everything that I hear, you're doing an outstanding job there.
    Dr. Newsome, let me begin with you. Ever since reading 
something in an education digest about 35 years ago called the 
Banneker Report that talked about the work of a Dr. Sheppard in 
the Banneker School district in St. Louis, Missouri, which was 
the poorest district in the area, reading scores were low, 
things were in disarray, and he sort of became the pied piper 
of education for that community and formed a partnership 
between the school and the community.
    I've been convinced that in low income, low-performing 
communities, the most effective way to raise the standards and 
raise education achievement is to have a serious partnership. 
So I'm intrigued by the Achievable Dream Academies. Could you 
talk a little bit about how those were put together and how the 
concept emerged?
    Dr. Newsome. I think it takes individuals and ordinary 
people who want to do extraordinary things. And this began long 
before I became superintendent in Newport News. As a matter of 
fact, I think some of the credit needs to go to Dr. Smith here, 
who was probably in Newport News when this was started. And our 
good Congressman Bobby Scott was very much involved as well.
    But there was a gentleman named Walter Siegeloff who was a 
businessman who became frustrated when he had applicants who 
could not fill out an application and young people who could 
not interview. And this one businessman joined with other 
businessmen and worked with the school system.
    And I think what's unique about Newport News is it took a 
brave superintendent to say I'm going to give up some of my 
authority and some of my autonomy and share it with the 
community.
    Too many school systems aren't willing to do that and, 
thus, I think they lose out on opportunity for business and 
community partnerships.
    One last thing. There is an educational foundation in 
Newport News that consist of business leaders throughout the 
community, and they have made education as their No. 1 issue. 
And so this shared partnership and this desire to give up some 
of the autonomy, to link up with those people who would support 
education I think was the foundation to the beginning of the 
Achievable Dream Academy.
    Mr. Davis. And I couldn't agree with you more. I mean I 
believe that if a community determines that education is the 
highest priority for that community, I don't care how low the 
income or what kind of community it is, where it's situated, 
that they'll find a way in concert with the educators for 
children to achieve.
    Paul, I've been spending a lot of time looking at this 
whole notion of problems that African-American males are 
experiencing with education achievement, more so than many 
other components of the population.
    It is my belief that one of the problems is that there are 
so few males in early childhood education that they come into 
contact with, that many of them grow up with the idea that 
education really is not for them, that it's a female thing, 
that it's a girl and a woman thing.
    Do you--would you believe that maybe some heavy emphasis on 
finding ways to recruit trained minorities to become early 
childhood educators might have some impact on this problem?
    Mr. Vallas. You know, getting men into schools in general 
is--we have elementary schools where you don't have a single 
man or the only man in the school might be the custodian. And 
so just getting men into elementary education would make a big 
difference, particularly in early childhood education.
    Our approach has been to aggressively recruit in the 
worthy--where the male educators are, particularly African-
American male educators. And so we have a very strong working 
relationship with the historic black colleges. Or course 
Congressman Reverend Dr. Gray is obviously a prominent citizen 
of Philadelphia, so he certainly assists us in that endeavor. 
So we've been moving aggressively to do that.
    We've also been aggressively doing alternative 
certification through programs like Teach America, which has 
had phenomenal success. This has also enabled us to target--to 
go out and recruit males, African-Americans from other 
professions who then--who have the content area mastery, but 
they obviously need the instructional experience. So that's 
enabled us to increase the number of males, in particularly 
African-American males in the schools. But, you know, having 
those male role models and those male mentors in the schools, 
either in an instructional capacity or at least in a support 
capacity is critical.
    That's why the partnerships with the faith-based 
institutions are so important. And these are not traditional 
partnerships. We encourage our faith-based institutions to set 
up gospel choirs, after school programs, bible clubs, as long 
as it's voluntary and there's no expenditure of our funds. We 
also have in the state of Pennsylvania a law called Faith-Based 
Release Time that allows children to participate in faith-based 
services 36 hours during the regular school year, during the 
regular school day. And we actively encourage them to 
participate in those areas.
    And then, of course, when the faith-based institutions have 
that opportunity, they come in and they set up the passage 
programs, the mentoring clubs, their peer mentoring clubs, and 
these things establish a much larger male presence in the 
schools, and it has much greater benefit particularly to the 
young African-American males, who, again, need to have the role 
models in the schools, value in education.
    I do want to mention one more point very quickly. I'm a 
time eater here and I apologize, Congressman. Mayor Street and 
Chaka Fattah have embarked upon a program called Last Dollar. 
And under this Last Dollar program, we provide every high 
school senior a scholarship designed to make up the difference 
between what they can get in financial aid and what they need 
to attend college.
    For a lot of parents--for a lot of children who come from 
families whose parents who have never gone to college and view 
college as financially beyond their means, the signal that 
we're sending to that incoming freshman is at the end of the 
day at the end of 4 years, you will be able to financially 
afford college and university. All you have to do is stick 
around to get the prize so to speak. And we think that that's 
going to have a profound impact too.
    So we think, again, that that image that somehow college--
it's not only no one in my family has ever gone to college, but 
there's also this perception that college may be beyond their 
financial means. So programs like Gear Up, which is Chaka 
Fattah--Congressman Fattah's program, and programs like Last 
Dollar are designed to basically eliminate that psychological 
obstacle that somehow schools are never going to be--college is 
never going to be financially affordable.
    Mr. Davis. Thank you very much. Mr. Chairman, I know my 
time has gone, but if the other panelists could just respond 
quickly to the male involvement question, I'd appreciate it.
    Dr. Smith. I agree with your point. I think one of the 
critical issues is in trying to develop strategies within a 
district. Being keenly aware of some of the social and 
developmental factors that children go through, that young 
people go through, and being keenly aware of the fact that it's 
not just, as we all have advocated, a strong managed 
instructional program, but it's the other half of it. It's what 
the child brings to the classroom, and it's the social context 
that they bring to the classroom.
    One of the strategies that I have found to be very, very 
successful in Newport News, in Charlotte, and again now in Anne 
Arundel County is a program called AVID, Advancement via 
Individual Determination, where we actually work to cluster 
young people and kids that are ``traditionally average'' that 
all of a sudden start doing some pretty extraordinary things; 
where you have a group of males that are academically oriented 
and they rely on one another and develop a social fabric around 
academic settings and it's OK. It's OK to pick up the phone and 
call each other and ask each other about your math assignment.
    But those kinds of relationships and that kind of a social 
structure don't normally come into existence in our middle 
schools and our high schools. Quite often it's the social 
fabric that says to do the exact opposite.
    And so again, we do have to design and actually 
strategically design strategies to counter that and to build 
another kind of an expectation whether it be through adult role 
models or peer role models.
    Dr. Raymond. I was just going to add that we are just 
starting to look at the performance in a few schools that are 
single sex public schools, and it seems that the gains that 
we're seeing in the male public schools are actually 
outstripping the gains in the female public schools. So I think 
that there is something to the point that you were raising that 
there's a sociology that we could think about creating in 
schools that would be attractive to engaging males early on and 
keeping them engaged through their education.
    Dr. Casserly. A number of our cities are having pretty good 
luck with a series of mentoring programs like in conjunction 
with 100 Black Men and other organizations in the community 
that provide mentoring and personal support services. And I 
think those are often proving to be enormously helpful with 
many of our kids.
    Chairman Boehner. The Chair recognizes the gentleman from 
Delaware, the Chairman of the Education Reform Subcommittee, 
Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman. This is a great panel. 
Let me ask my question, then I'm going to do a little talking, 
and then you can answer the question while I give you a minute 
or two to think about it.
    My question is going to be how would you change No Child 
Left Behind? This could be a general answer. You don't have to 
cite statute numbers or anything like that. But I mean if we 
were to make changes in it, and I would assume that come 
January of next year when the elections are over with, there 
are probably going to be some changes. I'd be interested in any 
thoughts you have, but you can expand beyond that. If there's 
other Federal education policy if you aren't sure where it all 
falls, I wouldn't mind hearing that, either. Think about that 
for a moment.
    Just a couple of comments.
    Chairman Boehner. I think the gentleman's time has expired.
    Mr. Castle. Thank you very much.
    [Laughter.]
    Mr. Castle. On the early intervention that Dr. Smith talked 
about, that pre-literacy component is absolutely essential, and 
sometimes I think we have trouble selling that even here. 
Frankly, we do have trouble selling it to the groups who come 
before us in the Federal involvement in these early 
intervention programs.
    I'd also just like to say generally that I just think in 
the community, all the way from the home, the church, the 
organizations, whatever, we just need more education. And 
culture is the same thing. I mean I never see anything on 
television that seems to sell the value of education, even the 
economic value on it, and then the coverage of education in 
general from a press point of view.
    If you take a poll, it's usually second-highest to the 
economy other than perhaps Iraq right now. And yet, you look 
around this room and you have the ubiquitous C-Span cameras but 
you don't have other cameras here. They're probably covering a 
rock star someplace talking about something else like the 
environment or something like that.
    The print media I think is good about this, but it's not a 
subject that sells easily. And somehow or another I don't think 
the value of education comes home to roost at home, and that 
just bothers the heck out of me too. How to get around it, I 
don't know. I'll leave that for a later day.
    So my only question, do any of you who want to take a stab 
at it, is there anything at the Federal level that we as a 
legislature should be considering dealing with legislation?
    I'll give you an example. I don't like the fact they call--
if you don't make out on yearly progress, they call it failed 
schools. To me, somehow the classification system ought to be 
somehow structured differently so they can't--the media can't 
assume that any school that doesn't quite make it is a failed 
school.
    Chairman Boehner. Now, the gentleman knows that, if he'll 
yield, that since 1994 the ESEA refers to schools in need of 
improvement, and that same language was incorporated in No 
Child Left Behind. Now how people decide to refer to it is 
obviously far beyond our control, but we don't--there's no 
terminology in No Child Left Behind or the rest of the ESEA 
that refers to failed schools.
    Mr. Castle. Absolutely. I mean I couldn't agree more. The 
Chairman is absolutely correct about that. I mean, you read it 
and it just isn't there. Yet, they call them failed schools. 
Somehow we have to do it in such a way that they can't do that. 
I guess we can't legislate it out of existence, but it's 
something that I would like to address.
    But in any event, I'd like to hear your thoughts about No 
Child Left Behind or Federal education policies from a 
legislative point of view that we might consider, if any of you 
want to take a stab at it.
    Dr. Casserly. We haven't developed any detailed list of 
changes that we want to see made in No Child Left Behind. We 
assume that many of those specific recommendations will start 
to be discussed by Congress in earnest next year.
    I think there is going to probably need to be additional 
conversations on how it is the AYP system is calibrated. We may 
want to take a look in a little more intensive way on various 
growth models in measuring student achievement to see whether 
or not that isn't a good way to assess progress rather than 
being quite so fixed on getting over these bars.
    I suspect that we're probably going to have to recalibrate 
a little bit the choice and supplemental service provisions, 
maybe even resequence how they are done rather than--there's 
been a lot of discussion about maybe choice ought to come 
behind supplemental services. I think that's a legitimate 
conversation to have. We're probably going to have to revisit 
this issue about capacity and revisit the issue about end sizes 
as well.
    I think broadly the thing that we're probably going to have 
to drill down on a lot besides these various technical 
mechanics of the legislation is in part what we've been trying 
to deal with in this panel, and that is how it is we use the 
law as a mechanism for driving student performance forward and 
ensuring that the law simply doesn't become a mechanism for an 
exercise in compliance, but it is in fact a driver of student 
performance. And I think that whole broad conversation is going 
to have to be back on the table when Congress decides to 
discuss it.
    Dr. Raymond. I'd like to jump in and focus on a place where 
I see the incentives of the legislation being slightly out of 
alignment, and that's in the area of highly qualified teachers.
    When I think about what drives student performance, it's a 
teacher who can create learning gains in their students. And 
yet, when we look at the regulations around what we use to 
define highly qualified teachers, I don't see anything that 
relates to the effects that a teacher can create in learning in 
their students, and I'd like to see that alignment tightened 
up. I think that would go a long way to pushing the incentives 
down into the classroom in ways that I think will accelerate 
performance.
    Mr. Vallas. I would just comment, I provided a--in my 
remarks I provided an attachment that talks in detail about 
supplemental education services. And rather than spend a lot of 
time on that, I think that's an area where we need to take a 
close look at because the--the theory behind the supplemental 
education services is if children cannot exercise choice, they 
need to be provided with supplemental education services at the 
school that they're at. And they're entitled to those services, 
and those services are supposed to be provided by private 
providers.
    The problem is, and I'm not so sure--I don't know if this 
is as much a national issue or a state issue. Maybe it's the 
subject of state interpretation. But the act, the way it's 
structured, actually reduces competition rather than increases 
it, and it puts you in a position where providers can come in 
and say look, this parent's entitled to 30 hours of 
supplemental education service instructional support, and I'm 
going to charge them $1800. So there's no price competition. 
It's almost as if the price and the hours are fixed.
    What we did as a solution, and to the Department of 
Education's credit, they were supportive or at least they did 
not oppose it. Our state approved it. Reorganize the school 
district into a supplemental education service unit, and then 
we contracted out with private providers to provide services. 
So we were able to provide 160 hours of after school 
instructional support for $300 per pupil.
    But if you look at the memo as I laid out, that's an issue 
that needs to be tweaked a bit. And I don't know if it's as 
much a national problem in terms of the rules and regulations 
involving the No Child Left Behind Act or whether or not it's 
more a subject of state interpretation. It's still a little 
unclear.
    Also, many of these issues we've talked about, for example, 
the--what constitutes a fully service teacher or a highly 
qualified teacher? A lot of that's dependent on the rules and 
regulations that the state adopts. I don't know if giving the 
states more latitude or less latitude is good or bad, but 
clearly our battle is to improve the act. And again, I'm a big 
supporter of the act. The accountability provisions in the act 
are long overdue. But to continuing to improve the act may be 
as much a statewide effort as it is a national effort to 
actually change the Federal act itself.
    Chairman Boehner. The Chair recognizes the gentleman from 
Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Michael, you expressed that No Child Left Behind's grand 
vision is being undercut by statistical manipulations that 
exempt a great many children as long as they are not 
concentrated in large numbers in the same district, school or 
classroom.
    How extensive is this? And how can we in Congress address 
this problem?
    Dr. Casserly. Well, as you know, Mr. Kildee, this end size 
issue--the end size referring to the size of the subgroup in 
order to count its various test scores for your AYP 
calculations. I think that an emerging practice amongst some 
states of enlarging that end size or making the end size one 
size for one group and one size for another group undermines 
the act and essentially sends the signal that a great many 
children can be left behind as long as they're not concentrated 
in large numbers in the same districts, the same schools, the 
same classrooms and the like.
    I think the Department of Education has just started to 
review various applications for modifications to end sizes. I 
think there are seven states that have asked for that change in 
their end sizes. But these end sizes now are different in I 
believe seven states for disabled children than they are for 
other students and for English language learners in a number of 
states. And the end sizes can range as large as 100 to 200 in a 
couple of states.
    And I think it's probably worth the Committee taking a look 
at this, because what it suggests over the long run is that you 
get these end sizes up to a certain level, you're likely to 
start exempting large swaths of school districts, particularly 
smaller school districts that don't have an end size large 
enough to be calculated under these end size provisions, and 
then letting large numbers of schools and school districts kind 
of off the accountability hook when--and a lot of kids left 
behind if Congress doesn't attend to this a little bit more 
vigilantly.
    Mr. Kildee. That's somewhat gaming the system, isn't it, 
when you--
    Dr. Casserly. Well, I think it is--you know, I don't want 
to characterize the motives of any individual state, but it 
certainly has the effect, when this is done, of letting large 
numbers or could have the effect of having large numbers of 
schools and school districts out of AYP accountability and 
leaving many of those subgroups in those school districts 
without any measurement or accountability to the state or to 
the Federal Government at all.
    Mr. Kildee. We can--disaggregating of data, then, would it 
not--actually, we started in No Child Left Behind but it 
started back in '92, wasn't it?
    Dr. Casserly. Well, I think this question about end size 
does undercut the whole notion disaggregating data because 
you're essentially saying once the data are disaggregated, it 
doesn't necessarily count unless the end size or the subgroup 
size of that disaggregated group is large enough to form a 
critical mass in somebody's mind in order to justify their 
inclusion in the accountability system.
    So in some ways it undermines I think the broader intent of 
the act, and it undermines the Congress' intent, rightful 
intent to insist that the data be disaggregated and then insist 
on people being accountable for the performance of those 
groups.
    Mr. Kildee. Thank you. Dr. Newsome, you mentioned the need 
for better school buildings. Probably about 25 years ago I 
introduced a bill for Federal participation in school 
construction. The Federal Government has actually spent more 
money helping state and local governments build prisons than it 
has school buildings by far in my 28 years here in Congress.
    How do inadequate school buildings make it more difficult 
to carry out your responsibilities under No Child Left Behind?
    Dr. Newsome. Thank you for the question. In some cases 
schools systems may actually have to return dollars that have 
been allocated for specific programs because there is not the 
space available. For example, we have used local dollars to 
supplement state dollars for preschool programs. This year the 
state is now going to support that funding, and we have used 
Title I dollars to supplement it in the past. Now we can 
reallocate those Title I dollars in a different manner. But 
some of the restraints that we have regarding how we can spend 
those dollars may prohibit us from including as many students 
as are eligible to participate.
    Right now we have approximately 2000 students who are 
eligible, and we are educating about 900, and space is 
certainly a significant challenge. In some cases, we might have 
to eliminate some programs.
    When I was in Prince George's County and we began the all 
day kindergarten program, we began to eliminate computer labs. 
So we are competing with--you know, what is going to get us the 
greatest gain. And we certainly had to make sacrifices. And I 
think school systems across the country are making sacrifices. 
Certainly in the urban school systems many buildings are just 
outdated. They have roofing problems, and heating and air 
conditioning problems, and a number of other problems that I 
think certainly negatively impact our instructional programs.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    Chairman Boehner. The Chair recognizes the gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Because I've been 
such a marvelously patient person here, I think you'll patient 
with me, because I think my questions will take a little more 
than 5 minutes, but I won't go on and on.
    But I have two major questions, and I would like to ask you 
to either answer one or both or comment or not at all. But 
here's what happened today in one of my major newspapers. I 
represent the districts two counties north of the Golden Gate 
Bridge, suburbia at its best, by the way. But here's the 
headlines. ``School standards law under fire. State lawmakers 
are taking on the heavily criticized No Child Left Behind Act 
in a seemingly well-orchestrated effort to exempt California 
from provisions of the Federal education law, which they charge 
duplicate long established standards of accountability in the 
state's public schools and unfairly punish schools with large, 
low income and minority enrollments. This resolution passed the 
assembly 71 to 1 on Monday. It's supported by the state 
superintendent of schools, the California Teachers' 
Association, the California School Board's Association and 
Small School District's Association.''
    My question on this one, and then I'll go into my second 
question, is how do I address this? I mean they know that I'm 
not real keen on No Child Left Behind.
    Now, first of all, thank you very much for your testimonies 
and your patience. We very seldom have a hearing that lasts 
this long. The interest is really great from the members of 
this Committee.
    It sounds to me like you've been saying small schools, 
small classrooms, independent learning plans for students, 
parental involvement, quality teachers, and oh, yes, indeed, 
healthy, nourished children who are ready to learn when they 
enter the classroom. I mean, that's what we need.
    My question to you is why aren't we making that happen? Why 
do we have to go, you know, identify schools and say you're not 
good enough and not make what we know--we celebrate charter 
schools, we celebrate public--private schools who are able to 
meet these goals because they do exactly what we know we should 
be doing in the public school environment. OK?
    Mr. Vallas. I'll start out by saying you've got to have 
accountability. The reason that we've moved as far as we have, 
large districts, smaller districts, is because someone has 
demanded accountability. We didn't start to move in Chicago 
until we demanded accountability, accountability of the schools 
for performance, accountability of the principals, of the 
teachers. Indeed, we're moving into greater accountability of 
the parents as difficult sometimes as that is.
    So, you know, just--more money. Look, we need more money 
for early childhood education. The state needs to, the Federal 
Government needs to get into the business of helping districts 
construct new schools and rehab existing schools. We would love 
to have more Title I money. The special ed mandates need to be 
fully funded. But, you know, all that will not be--will only go 
so far if you don't have accountability. If you--
    Ms. Woolsey. Excuse me, but--
    Mr. Vallas.--have an act that doesn't have teeth in it, you 
know, what--
    Ms. Woolsey. But where is our accountability? Our 
accountability is the state legislators that are against this 
in my state, or on the Federal level. We know that we will have 
more male teachers if we actually pay a competitive wage, 
salary, for these important people in our children's lives. 
Where's our accountability on this stuff?
    Dr. Casserly. Good question. I'm not sure how--thanks, 
fellow panelists, for looking down here.
    I'm not sure how in the world we answer your question about 
the California situation. Any number of state legislators 
across the country have passed one resolution or another about 
No Child Left Behind. I think you're obviously seeing in 
California, like you see in a lot of states, kind of the early 
frustration with what Mr. Ehlers characterized as a paradigm 
shift.
    You don't see as much pushback on this legislation in large 
cities and urban communities, in part because we understand how 
important it is to improve student achievement in the cities 
and to close our sizable achievement gaps.
    And we understand that oftentimes outside of the big cities 
you haven't had quite the focus or attention on disaggregation 
of results or being accountable for results that you've often 
had in the urban areas. So it's causing something of a 
pushback. But I think there are enough kind of good stories to 
tell about some of the important gains that people are making 
in student achievement to give us and give this Committee and 
give Congress some hope and encouragement.
    The act, in its broad scope, is on the right track. We 
haven't got all of the details calibrated just right. There's 
lots of technicalities that we're going to have to work out in 
the years ahead, but the overall emphasis, priority and intent 
of the act was the right one.
    Dr. Raymond. I would like to speak to the California issue, 
because it's my home state and because I spend a lot of time 
looking at California schools.
    My understanding is that particular legislative initiative 
was actually not coming out of the urban districts but it was 
coming out of the suburban and the rural districts. And the 
concern was, I think, grounded in a failure to embrace the 
paradigm, because it is in fact the case that if you look at 
the progress of a large number of California suburban and rural 
school districts, they are not making the grade. They are not 
adding to the learning curve that their kids have and, 
therefore, the likelihood of them hitting their AYP goals goes 
down, and they're very upset about because all of a sudden the 
light is being shined on them instead of on the big, ugly, 
urban districts, which everybody is very happy that take the 
limelight in the media.
    So I think the initiative in California is slightly 
displaced because we do, in fact, believe that every single 
child should make academic progress. And if you've got a cozy, 
comfortable district that's not making it, it's going to be 
very uncomfortable for them to confront that. And so I think 
you'll see a lot--what I see in this legislation that I've been 
following in the last couple of weeks is that the people who 
are really pushing that are not the urban districts, it's the 
ones that are getting the spotlight for the first time.
    Dr. Casserly. And that's why this conversation about the 
end size is so important because you see in a lot of cases a 
lot of these districts that are finally facing the scrutiny for 
the very first time kind of welcoming this increase in the end 
size. But in many ways what it is is a way to get out from 
under the accountability systems that they have really not been 
accustomed to in the past.
    Chairman Boehner. If the gentlelady would yield, in my 
opening statement I talked about the aggregate scores. 
Especially in suburban and rural districts, aggregate test 
scores have been going up for a number of years.
    But when we agreed to disaggregate the data to shine the 
light on the dark corners of what's happening in schoolrooms, 
you'll find that it was easy to hide some children in overall 
school aggregate numbers. But when you have disaggregate the 
data for LAP students, special ed students, it makes especially 
suburban schools and some rural schools very uncomfortable 
because they were always able the hide behind the aggregate 
numbers.
    It was one of the most significant changes in ESEA because 
the aggregate scores had to be reported under the '94 Act. When 
we begin to disaggregate to get to every child, it becomes very 
uncomfortable for some.
    Mr. Kildee. I'm glad you corrected me. When I said '92 it 
was '94.
    Ms. Woolsey. Anybody else?
    OK, then--
    Mr. Vallas. I want to make one comment. A number of years 
ago, not too long ago, Michael--I remember this study was done 
in Illinois that looked at--this was before the act was 
passed--that looked at performance of minority students not 
only in Chicago but across the state. And one of the things 
they discovered was that minority students did far better in 
Chicago than they did in the suburban districts, many affluent 
districts, many districts with very high test scores where 80, 
90 percent of the kids are meeting or exceeding state 
standards. And that would have--and this was before the mandate 
that that date be disaggregated.
    Some of the biggest critics of this act just happened to be 
superintendents in some of the most affluent districts. As my 
colleagues and others from the Committee have states, the 
disaggregation of data has kind of, you know, shown all the 
deficiencies that exist in both large urban districts, suburban 
districts, rural districts.
    I'm supportive of the act not only because of the 
disaggregation of the data, but it's kind of put us all in the 
same boat now so that we can look at our problems collectively, 
because the bottom line is you have many affluent districts 
that have been doing not only not a more effective job but in 
some cases a much less effective job with the very at-risk 
students that not only is the act attempting to address but 
Brown vs. the Board of Education attempted to address with its 
historic ruling 50 years ago.
    Dr. Smith. I'll just add again, I spent 6 years in North 
Carolina. Some of the most dramatic shift in demographic 
populations of school age children were in the rural portions, 
smaller, rural districts in North Carolina with huge swings in 
demographic percentages. And for those communities and those 
districts, their survival depends on public education, the 
ability to adapt and to shift and to deal with the challenges 
of No Child Left Behind to adapt to the new population that 
they're serving for the state's survival.
    Now I'm serving at a school district that is much more 
suburban than Charlotte, North Carolina, and the paradigm shift 
that Dr. Casserly speaks about is very real and very difficult 
and very painful, where the vast majority doesn't necessarily 
see the need. But it is a journey that is also very rewarding 
at the end once all educators in the community embraces the 
fact that we can be successful for all and need to be 
responsible for all.
    So again, it is the early stage of the shift in thinking 
about education in America.
    Mr. Woolsey. Thank you, Mr. Chairman. Thank you, panel.
    Chairman Boehner. Mr. Kildee.
    Mr. Kildee. Mr. Chairman, since you're going to keep the 
record open for--
    Chairman Boehner. Fourteen days.
    Mr. Kildee.--14 days, there are some questions which Mr. 
Hinojosa would like to have answered by the panel.
    Chairman Boehner. So ordered.
    Let me just thank our panelists for their excellent 
testimony and their insight. I have to say this was one of the 
best hearings we've had during the almost 4 years I've been 
Chairman. It wouldn't have happened without all of you.
    This hearing is adjourned.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Hon. Dennis J. Kucinich, a Representative in Congress from 
                           the State of Ohio

    While the results of the recent Council of the Great City Schools 
report, ``Beating the Odds,'' found some progress being made in our 
nation's urban schools, schools cannot be expected to consistently 
provide quality learning environments without adequate funding. Yet 
again this year, the President's budget underfunds the No Child Left 
Behind Act. Title I of the law, which provides funding to schools in 
the greatest need, is especially hard hit in this shortfall. The 
administration has requested $13.3 billion for the fiscal year 2005 in 
Title I funding, which is over $7 billion short of the promised level. 
This is simply unacceptable.
    The effects of education underfunding on the federal level are far 
reaching. When local schools don't get the resources they need, our 
children suffer. Because of failed federal policy and extreme state 
budget cuts in Ohio, just this week, the Cleveland city schools have 
had to cut over 600 teaching positions and 1,400 total employees. 
Administrators expect that class size will increase anywhere from five 
to seven students per class. In addition to staff layoffs, the board 
has also been forced to reduce funding for extracurricular programs and 
textbook purchases.
    It is wrong to champion the importance and significance of academic 
gains being made by students and then refuse to take the actions 
necessary to further those gains, but this is what the administration 
has done. We must work to ensure full funding of the No Child Left 
Behind Act and live up to our responsibilities to the children of 
America.
                                 ______
                                 

   Response from Dr. Margaret Raymond to Questions Submitted for the 
                                 Record

Questions from Hon. Ruben Hinojosa
    I would like to thank the witnesses for their testimony. I would 
like to see this committee take a more active role in monitoring the 
implementation of the No Child Left Behind Act. There is too much at 
stake for us not to engage in an on-going dialogue with the 
Administration and other stakeholders on the implementation of the Act.

    One of the Aspects of the No Child Left Behind that needs 
additional attention, especially in our large urban schools is the 
issue of graduation rates. Numerous reports have come to the same 
conclusion that roughly one-third of our high school students fail to 
graduate with their peers. For Hispanic and African American students, 
that figure hovers around 50 percent. In our urban schools, graduation 
rates can be 50 percent or sometimes even lower. Under NCLB, our 
secondary schools are not getting the support they need to turn this 
around. In fact, NCLB does not even hold secondary schools accountable 
for high school graduation rates disaggregated in the same way that 
math and reading test scores are. That is why Congresswoman Susan Davis 
and I introduced H.R. 3085, Graduation for All Act, to target resources 
to our secondary school to improve their graduation rates through a 
focus on adolescent literacy, individual graduation plans for the 
students most at risk of not graduation from high school, and increased 
accountability for graduation rates. I am interested in hearing Dr. 
Newsome's and Dr. Raymond's views on the need for this kind of 
legislative effort.
    The Congressman raises an important question: while the details of 
NCLB at present focus on academic performance, an implicit assumption 
is that academic attainment should follow directly.
    The lessons from our research suggest that simply asking states to 
report their graduation rates will not create the incentives that are 
needed to drive change. Even if we had uniform definitions and data 
collection practices about graduation rates--a much needed reform in 
and of itself--it would be necessary to consider what impact a 
mandatory rate would have on schools. My fear is that we would see a 
repeat of the New York experience where the Regests diploma (which used 
to be tied to rigorous academic standards) has been devalued for the 
sake of raising the statistic.
    This topic is one that would lend itself well to the kind of 
public-private partnership that Mr. Vallas described yesterday. The 
idea would be to keep the focus on academic performance via the 
legislation and other policies, and then attempt to create personal 
incentives for students to reach the graduation point because they have 
a chance at higher education. An alternative would be to target some of 
the Pell dollars to specific schools or geographies on a merit basis.

    Our urban schools have large limited English proficient 
populations, yet none of you directly addressed the achievement of this 
sub-group of students in your testimony. Could you please share with us 
the progress you are making with LEP students and how you are 
implementing NCLB with respect to this population?
    The data we used did not have enough historical data on LEP to 
permit a full analysis of progress.

                                 <all>

</pre></body></html>
